APPENDIX
March 6, 2020, Order Denying a Certificate of Appealability

la- 3a.

April 23, 2020, Order Denying Rehearing............................

4a.

January 21, 2020, Appellant’s Combined Opening Brief and Petition for Certificate of
Appealability........................................................

5a- 30a.

November 04, 2019, Opinion and Order...................

31a- 39a.

February 28, 2011, Plea of Guilty, Summary of Facts

40a - 46a.

February 28, 2011, Plea and Sentencing Transcripts .

47a-61a.

March 20, 2020, Petition for Rehearing....................

62a- 73a.

s-

30

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
March 6, 2020
Christopher M. Wolpert
Clerk of Court

ADELSO BARNES,
Petitioner - Appellant,
v.
JANET DOWLING,

No. 19-5101
(D.C. No. 4:19-CV-00097-JED-FHM)
- (N.D.Okla.)

Respondent - Appellee.

ORDER DENYING A CERTIFICATE OF APPEALABILITY*

Before MATHESON, KELLY, and EID, Circuit Judges.**

Petitioner-Appellant Adelso Barnes, a state inmate appearing pro se, seeks a
certificate of appealability (COA) to appeal the dismissal of his habeas petition, 28
U.S.C. § 2254, as time-barred and not subject to statutory or equitable.tolling. Barnes v.
Dowling. No. 19-CV-0097-JED-FHM (N.D. Okla. Nov. 4, 2019). In 2011, Mr. Barnes
pled guilty to second degree felony murder, first degree burglary, robbery with a

* This order is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. It may be cited, however, for its
persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
** After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument.

I<X

dangerous weapon, and knowingly concealing or receiving stolen property. He was
sentenced to prison terms of 35 years, 20 years, 35 years, and 5 years, respectively, with
all terms to run concurrently.
To obtain a COA, Mr. Barnes must make “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). Where a district court dismisses a
§ 2254 petition on procedural grounds, the petitioner must demonstrate “that jurists
of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” See Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Here, Mr. Barnes delayed filing his habeas
petition nearly seven years after his state conviction became final and is not saved by
statutory tolling. See Harris v. Dinwiddie. 642 F.3d 902. 907 n.6 110th Cir. 2011).
Further, even if Mr. Barnes’s argument that he discovered new evidence in 2017 is
credited his filing still falls outside of the one-year statutory tolling period available
under § 2244(d)(1)(D). See Clark v. Oklahoma. 468 F.3d 711, 713 (10th Cir. 2006).
Additionally, Mr. Barnes has failed to “show specific facts to support his claim
of extraordinary circumstances and due diligence” sufficient to trigger equitable
tolling of the limitations period. Yang v. Archuleta. 525 F.3d 925, 928 (10th Cir.
2008) (internal citations omitted). The district court thoroughly explained why
equitable tolling would not apply. No reasonable jurist would find the district court’s
procedural ruling debatable, and it is therefore unnecessary to consider whether Mr.

2

Za

Barnes made a substantial showing of the denial of a constitutional right under the
Sixth Amendment.
We DENY a COA and DISMISS the appeal.

Entered for the Court
Paul J. Kelly, Jr.
Circuit Judge

3

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 23,2020
Christopher M. Wolpert
Clerk of Court

ADELSO BARNES,
Petitioner - Appellant,
v.

No. 19-5101
(D.C. No. 4:19-CV-00097-JED-FHM)
(N.D. Okla.)

JANET DOWLING,
Respondent - Appellee.

ORDER

Before MATHESON, KELLY, and EID, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

4

r>■o'

I

w ■

I

%

IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

y.u
V

'y'c+h
'••V&S

A,
**

■5

ADELSO BARNES,
Appellant,

Case No. 19-5101

Appellee.

Appellant’s Combined Opening
Brief and Petition for
Certificate of Appealibility

v.
JANET DOWLING,

APPELLANT’S COMBINED OPENING BRIEF
AND PETITION FOR CERTIFICATE OF APPF.AT TRTT .TTV
1. Statement of the Case. (Briefly summarize the events that took place in the district'court.
For example, identify when you filed your habeas application and any significant motions
and orders that were entered.)
a) That Appellant made application to the Honorable Judge of the United States District
1i

Court for the District Court for the Northern District of Oklahoma on February 21, 2019,
for a writ of habeas corpus, a copy of which application is attached.
b) The said Judge of said United States District Court denied Appellant’s application for a
writ of habeas , corpus by an order dated November 04, 2019, a copy of which order is
attached.
c) Appellant filed a notice of appeal from said order in said court on November 13, 2019. A
copy of said notice of appeal, is attached.
d) The detention complained of by your Appellant in his application for a writ of habeas
corpus arose out of process issued by a state court, to wit (name of court and statement of
order): District Court of Tulsa County, Case No. CF-2009-5867

r3
I

V-

e) The above-named Judge of said United States District Court has refused to issue a
Certificate of Appealibility upon Appellant’s motion for the reasons stated in his order
dated November 04, 2019, denying Appellant’s motion for a Certificate of Appealibility.
A copy of said order is attached.
f) Under Rule 22(b) of the Federal Rules of Appellate Procedure, it is necessary for a
Certificate of Appealibility to be issued before your Appellant may appeal to this court
from the denial of his application for a writ of habeas corpus.
g) In addition to the reasons stated in Appellant’s application for writ of habeas coipus, a
Certificate of Appealibility should be issued for the following reasons:
2. Prior proceedings. (Identify any prior state, federal, or administrative proceedings in which
you also sought relief from the conviction and sentence at issue in this appeal.)
On December 29, 2011, Appellant filed a motion for judicial review pursuant to OKI,A
STAT. tit. 22, § 982a;

-

On May 09, 2013, Appellant filed a motion for suspended sentence pursuant to OKLA.
STAT. tit. 22, § 994;
On July 13,2017, Appellant filed an application for postconviction relief in Tulsa County

f

1
i

District Court pursuant to OKLA. STAT. tit. 22, § 1080.

I

3. Statement of Facts Relevant to the Issues Presented for Review. (State the facts
necessary and relevant to understanding the legal issues you seek to raise on appeal.)
On July 13, 2017, Mr. Barnes, pro se, filed an “Application for Post-Conviction
ReliefApplication for an Appeal-Out-of-Time/Motions to Withdraw Guilty Plea Out-ofTime/Motion for Re-sentencing Hearing Pursuant to Montgomery’s retroactive Ruling/ and
Motion to Strike Information CF-2009-5867 as a Nullity” (“Application”).
Form COA-12

Page 2

0 2t

In the Application, the “state district corn! treated Petitioner’s second proposition [that
Petitioner did not receive any attorney so that he could make an ‘informed decision’ about an
appeal and was uninformed about his appeal rights, and requests this [c]ourt to withdraw his
pleas of guilty out of time] as a request for a recommendation to file an appeal out of time and
denied that request.” Attachment A, (“Opinion and Order”) at 3.
The state district court “construe[d] this request as an application for post-conviction
relief requesting a recommendation of a direct appeal out of time, as it is the only procedural
mechanism by which Petitioner could withdraw his plea at this time. Rule 2.1(E), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Oh. 18, App. (2017). However, Petitioner has
the burden of establishing that he was denied an appeal through no fault of his own. Id.; see also
Blades v. State, 2005 OK CR 1,4, 107 P.3d 607; Smith v. State, 1980 OK CR 43, If 2, 611 P.2d
276, 277.” Attachment C, Order Denying Application for Post-Conviction Relief (“Order
Denying”) at 3.
“The record clearly shows Petitioner was advised of his appeal rights. See [ ] Plea of
Guilty: Summary of Facts; Court Minute of 2-28-2011.” Id. at 4. The record also shows that
Mr. Barnes answered “YES” when asked: “Do you want to remain in the county jail ten (10)
days before being taken to the place of confinement?” Plea of Guilty: Summary of Facts at 6.
Based upon the record and absence of any communication, the District Court reaffirmed
'■

..

V

that “(1) the record demonstrated Petitioner was advised of his appeal rights, (2) the record
contradicted Petitioner’s ‘claim that he had no access to an attorney to be able to file a motion to
withdraw his pleas of guilty had he indicated he wished to do so,’ and (3) Petitioner ‘failed to
allege any specific facts that support that he attempted to communicate with his attorney’
regarding a desire to appeal. Doc. 8-6, at 4.” Opinion and Order at 3.
Form COA-12

Page 3
!

“1* I

The record ignores the fact that Appellant was clearly without counsel in the 10-day
critical period requiring “effective assistance of counsel,” when Mr. Bames requested to “remain
in the county jail.” The record below is incomplete in that certain facts are missing: (1) Mr.
Bames was never “consulted” upon waiver of his appeal rights under federal standards and (2)
trial counsel’s “failure-to-consult” defaulted Mr. Bames right to appeal where trial’s counsel’s
“failure-to-file” a jurisdictional form is not purely ministerial under Oklahoma law pertaining to
appeals from the change of plea process under Section IV, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch. 18, App. (2011 -2019).
4. Statement of Issues and Arguments. (Identify each instance in which you think the district
court was wrong and provide arguments as'to why you think error occurred, keeping in mind
the legal standard for granting a certificate of appealability. Wherever possible, cite
authorities that support your claims. You may argue, for example, that the district court
applied the law incorrectly, that the district court erred in its recitation or understanding of
the facts, that the district court failed to consider some important argument that you raised
with that court, or any other claims of enor that you think warrants a different outcome.)
a.

First Issue. Claim of error and supporting arguments:

A Certificate of Appealability should issue because the question of when a state conviction
becomes final is a Federal question.
In the case of Slack v. McDaniel, 120 S.Ct. 1595, the United States Supreme Court held:
When the district court denies a habeas petition on procedural
grounds without, reaching the prisoner’s..underlying constitutional
claim, a COA should issue when the prisoner shows, at least, that
jurists of reason would find it debatable whether the petition statesa valid claim of the denial of a constitutionaLright and that jurists
of reason would find it debatable whether the district court was
correct in its procedural ruling.

■ I

Id. 120 S.Ct. at 1604 (2000). In the appeal at bar, “Respondent contends, and Petitioner
I

concedes, that the habeas petition is untimely under § 2244(d)(1)(A).” Opinion and Order at 7.
It is material fact that on February 28, 2011, Mr. Bames was “convicted” via the Oklahoma

Form COA-12

Page 4

£ 3

change-of-plea process in lieu of his waiver of jury trial. See generally Plea of Guilty, Summary
of Facts at 3. However, due to the posture of Oklahoma’s “post-conviction” collateral process,
the Tulsa County District Court correctly points out, under a liberal construction, that Mr.
Barnes’ “Application” was—in fact—“an application for post-conviction relief requesting a
recommendation of a direct appeal out of time.” Order Denying at-3. Moreover, under this
substantial question, Rule 2.1(E), Rules of the Oklahoma Court of Criminal Appeals, Title 22,
Ch. 18, App. (2017) (hereinafter “OCCA Rule 2.1(E)”) “is the only procedural mechanism by
which [Mr. Barnes] could withdraw his plea at this time. ” Ibid.
The error in logic is that, when there is a fundamental right to “effective assistance of
counsel for a first appeal as of right” and Mr. Bames did not personally and affirmatively waive
that right, then it was ERROR for the District Court to not hold an evidentiary hearing into
whether Appellant “can establish ‘cause and prejudice’ to overcome his failure to. comply with
state procedural rules because his trial counsel abandoned him after sentencing and prevented
him from making an informed decision as to filing an appeal.” Opinion and Order at 13. In
other words, “[o]nly by considering all relevant factors in a given case can a court properly
determine whether a rational defendant would have desired an appeal or that the particular
defendant sufficiently demonstrated to counsel an interest in an appeal.” Roe v. Flores-Ortega,
120 S.Ct. 1029, 1036(2000).

•

•

Of course, “relevant factors” must be applied to the Rules of the Oklahoma Court of
Criminal Appeals, like their federal counterpart, “possess force of statute.” 22 O.S. § 1051(b).
In this strict legal sense, the Rules are “self-evident” and provide more than sufficient
“supporting evidence” that Mr. Bames was “abandoned” in the ten-day critical period requiring
the assistance of competent counsel. Carnley v. Cochran, 369 U.S. 506, 513 (1962) (The record
Form COA-12

Page 5

^ Z\

must show, or there must be an allegation and evidence which show, that an accused was offered
counsel but intelligently and understanding^ rejected the offer. Anything less is not waiver.).
As a counterpoint in federal law, 28 U.S.C. § 2254(c) states: “An applicant shall not be
deemed to have exhausted the remedies available in the courts of the State, within the meaning
of this section, if he has the right under the law of the Sate to raise, by any available
procedure the question presented.” Id. (emphasis added). Under this “exhaustion” rule, the
“available procedure” of OCCA Rule 2.1(E), did not realize nor satisfy Mr. Barnes’ right to
counsel on appeal.

Cf. Landreth v. Harvanek, 2014 WL 1390803 (W.D. Okla. 2014)

(unpublished) (According to Judge Erwin, Petitioner should have attempted to obtain leave to
file a direct appeal out of time in state court prior to pursuing this habeas action.).
1. Rule 2.1(E), Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18,
Appendix is “inadequate and ineffective” as to the Fourteenth Amendment guarantee
to “effective assistance of counsel on first appeal as of right.”
Because “application” of OCCA Rule 2.1(E) is not consistently and regularly followed
and evenly applied, as a pro se litigant seeking to assert his FUNDAMENTAL federal right to
“effective assistance of counsel for his first appeal as of right,” Mr.. Barnes’ reliance on “the only
procedural mechanism” available as a matter of law did not satisfy that right under 28 U.S.C. §
2254(d). See generally Williams v. Taylor, 120 S.Ct. 1495, 1510 (2000) (“... but when the.state
court addresses a legal question, it is the law ‘as determined by the Supreme Court of the United
States’ that prevails.”). See also Orange v. Calbone, 318 F.3d 1167, 1171 (10th Cir. 2003)
(Indeed, our review of Oklahoma case law suggests that an application for a direct appeal out of
time is rarely granted, and respondent does not dispute this conclusion at oral argument.).
To the contrary, by attempting to comply with the proper procedures and exhaust Mr.
Barnes state remedies in his first verified application for post-conviction relief as to why
Form COA-12

S

Page 6

l0 A

“Petitioner did not receive an attorney so that he could make an ‘informed decision’ about an
appeal and was uninformed about his appeal rights, and requests this Court to withdraw his pleas
of guilty out of time”, the Oklahoma courts departed from the correct legal standard of Roe v.
Flores-Ortega, 120 S.Ct. 1029 (2000). The Flores-Ortega Court held that, “to show prejudice in
these circumstances, a defendant must demonstrate that there is a reasonable probability that, but
for counsel’s deficient failure to consult with him about an appeal, he would have timely
appealed.” Id. 120 S.Ct. at 1038. Without measuring the substantive issue under constitutional
guarantee “that criminal defendant is entitled to effective assistance of counsel on first appeal as
of right,” under clearly established law of Eviits v. Lucey, 105 S.Ct. 830, 833 - 841 (1985), the
“inadequate and ineffective” standard of “through no fault of his/her own” doubly barred the
only vehicle of relief available under the only “available State corrective” process of OCCA Rule—
2.1(E).
The Oklahoma courts ultimately determined and affirmed “Petitioner did not timely file
motion to withdraw his plea, and Section 1086 of the Post-Conviction Procedure Act of the
Oklahoma Statutes bars relief on issues which clearly could have been raised in a direct appeal ”
Opinion and Order at 5. See also Attachment D, Order Affirming. Denial of Post-Conviction
Relief (“Order Affirming”) at 3 (Judge Musseman noted that Barnes failed to allege any specific
facts supporting his claim that he was denied an appeal through no fault of his own ... As for the
remaining claims, Judge Musseman found that the claims presented in Barnes’ postconviction
application could have been raised on direct appeal but no such appeal was filed.).
Although certainly factually distinguished from Baker v. Kaiser, 929 F.2d 1495 (10th Cir.
1991), the “due process” right to counsel is absolute and cannot be waived without notice by
attorney under Oklahoma law.
Form COA-12

Therefore, Mr. Barnes did not “waive” Appellant’s “Due
Page 7

u^

• ft.

Process” right to effective assistance of counsel for his “first appeal as of right.”

See Rule

1.14(D)(1), Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App. (2019)
(The trial attorney in all cases shall be responsible for completing and filing the Notice of Intent
to Appeal and Designation of Record required by Rule 1.14(C). If a defendant does not direct
the trial attorney to initiate an appeal, the attorney shall prepare and file the form set out in
Section XIII, Form 13.5, stating the defendant has been fully advised of his/her appeal rights and
does not want to appeal the conviction.).
Undoubted, operation of OCCA Rule 1.14(D)(1) “belonged to Petitioner alone, and it
was his responsibility to communicate any wish to do so” where the Trial Counsel Responsibility
is not “ambiguous.” It is “clear and obvious” that the District Court’s opinion and order lacked
such'a.'critical finding. Of course, there is no dispute that the “procedural bar” of OCCA Rule
4.2(A)-is “independent and adequate” and “consistently and evenhandedly applied.” Under this
“due process” theory, there must be a presumption of regularity in following the Rules of the
Oklahoma Court of Criminal Appeals. It is clear that there is fatally lacking a “presumption of
regularity” of OCCA Rule 1.14(D)(1) in Mr. Barnes case at bar. In light of OCCA Rule 1.14(D),
the inference to “waiver” by default is clearing erroneous to the fundamental right to “effective
counsel.”
The Baker Court held that “(1) right to counsel applies to period between conclusion of
trial proceedings and date by which defendant must perfect appeal, and thus defendant’s right to
assistance of counsel applied to statutory ten-day period for filing notice of intent to perfect
appeal, even though defendant did not express to appointed counsel his decision to appeal; (2)
defendant was denied right to counsel during ten-day period for filing notice of appeal; (3)
defendant did not waive right to counsel by failing to contact and direct court-appointed attorney
Form COA-12

Page 8

to file notice of appeal; and (4) denial of defendant’s motion for out of time appeal deprive
defendant of his due process rights.”
To the opposite of the holdings of Baker, supra, the District Court factual findings are
incorrect and premature for. its conclusions did NOT encompass the “presumption of regularity”
of OCCA Rule 1.14(D).

Instead, the District Court relied on the enoneous state court

presumption that Mr. Barnes was (1) “advised of his appeal rights [by the sentencing court], (2)
the record contradicted Petitioner’s ‘claim that he had no access to an attorney to be able to file a
motion to withdraw his pleas of guilty had he indicated he wished to do so,’ and (3) Petitioner
‘failed to allege any specific facts that support that he attempted to communicate with his
attorney’ regarding a desire to appeal. Doc. 8-6, at 4. Thus, the court concluded, Petitioner
--

—-fail[ed] to provide-a sufficient reason for his failure to perfect an appeal.-’--/^.”-Opinion-and *

-

- Order at 3. Stare decisis is applicable into the exceptions of 28 U.S.C. § 2244(d)(1)(A) and 28
U.S.C. § 2244(d)(1)(D):

. .

.

In Evitts v. Lucey, 469 U.S. 387, 105 S.Ct. 830, 83 L.Ed.2d 821
(1985), the Supreme Court held that the appellant’s first appeal as
of right was not adjudicated in accord with due process of law
because the appellant did not have the effective assistance of
counsel of an attorney. In this case, Mr. [Barnes] was denied his
right to counsel, yet his Motion for an. Out of Time Appeal was
overruled. We believe that, like the circumstances in Evitts, the
refusal of the Oklahoma court to grant Mr. [Barnes] an out of time.
appeal deprived him of due process of law.
Baker v. Kaiser, supra, 929 F.2d at 1500. As to the duties of “effective assistance of counsel”
the distinguishing case of United States v. Reyes-Espinoza, 754 Fed.Appx. 752 (10th Cir. 2018).
There Reyes-Espinoza argued that his was entitled to relief under Baker v. Kaiser, however, this
Court disagreed and found that the record was to the contrary, in the context of constitutionally
effective assistance of counsel:
Form COA-12

Page 9

l

A

After sentencing, Mr. Reyes-Espinoza’s attorney followed him
back to his holding cell and “explained to him the significance of
the district judge’s downward departure.” Id. at 96. The attorney
then “discussed with [Mr.] Reyes-Espinoza his appellate rights and
offered to file a notice of appeal on his behalf,” but Mr. ReyesEspinoza did not respond or instruct his attorney to file an appeal.
Id. at 96 - 97. Before he left, the “attorney asked [Mr.] ReyesEspinoza if he had any other questions, thoughts or concerns, and
made sure that [Mr.] Reyes-Espinoza knew how to contact him if
necessary.” Id. at 97.
Reyes-Espinoza, 754 Fed.Appx. 752, 752 (10th Cir. 2018). If such is the constitutional standard,
unlike Reyes-Espinoza, Mr. Barnes was not “consulted” upon “after sentencing” in clear
violation of the Rules of the Court of Criminal Appeals, possessing “force of statute,” 22 O.S. §
1051(b). Because “the right to effective counsel on appeal does not arise from state law, and
state law cannot operate to limit or restrict it,” Jones v. Cowley, 28 F.3d 1067, 1072 (10th Cir.
1994).
The United States Supreme Court recently stated: “The more administrable and workable
rule, rather, is the one compelled by our PRECEDENT: When counsel’s deficient performance
forfeits an appeal that a defendant otherwise would have taken, the defendant gets a new
opportunity to appeal ... That rule does no more than restore the status quo that existed before
counsel s deficient performance forfeited the appeal, and it allows an appellate court to consider
the appeal as that court otherwise would have done—on direct review, and assisted by counsel’s

~

briefing.” Garza v. Idaho, 139 S.Ct. 738, 749 (2019).
2. In light of OCCA Rule 2.1(E), the procedural ruling is NOT plain as a federal question.

Form COA-12

Page 10

It a

There is no question that Mr. Barnes did not “timely” move to withdraw his plea. Under
Oklahoma law, “in all cases” before the “ministerial” notice of appeal is filed on any defendant’s
behalf, there is a “pleading barrier” of OCCA Rule 4.2(A) to be submitted, strictly by the
defendant, before the right to appeal can even be realized. Irrespective of Oklahoma law, the
Garza Court explained that “[a] notice of appeal also fits within a broader division of labor
between defendants and their attorneys. While ‘the accused has the ultimate authority’ to decide
whether to ‘take an appeal,’ the choice of what specific arguments to make within that appeal
belongs to appellate counsel.” Id. 139 S.Ct. at 746,
Although Mr. Barnes did not file a timely motion to withdraw his pleas of guilty, OCCA
Rule 2.1(E) allows Appellant to file an application for postconviction relief requesting an appeal
out of time in the trial court where the final order denying relief was imposed. - As provided
above, Mr. Barnes’Application was construed likewise. See Opinion and Order at 3.
a. “Cause and Prejudice” by the disjunctive “or” is distinct from “Miscarriage of Justice.”--

--2.

. -

The District Court points out that the United States Supreme Court has determined that
the AEDPA statute of limitations could be “reset” through grant of the “appeal-out-of-time”
process. Opinion and Order at 7. However, because OCCA Rule 2.1(E) is “independent” of
federal law, the subjective standard of “through no fault of his/her own” cannot be overcome
with “ineffective of counsel” as caiise and the actual prejudice suffered is the loss of. an e’ntire
appellate proceeding to which “effective assistance of counsel” attaches.

Of course,

“constructive” denial of counsel or “abandonment” is a “factual dispute.” See generally Banks v.
State, 953 P.2d 344 (Okla.Crim.App. 1998) (Under our appeal out of time procedure, a delay in
filing the appeal or even the inability to file the appeal—for any reason, not just late mailing by
prison officials—that is not the fault of the pro se prisoner, can result in relief.).
Form COA-12

Page 11
/«

^

“On habeas review, this Court will not consider issues that have been defaulted in state
court on an independent and adequate state procedural ground, unless the petitioner can
demonstrate cause and pi ejudice or a fundamental miscarriage of justice.” Hickman v. Spears,
160 F.3d 1269, 1271 (10th Cir. 1998). “Independent state procedural grounds are those that rely
exclusively on state law as a basis of decision.” Smith v. Mullin, 379 F.3d 919, 925 (10th Cir.
• 2004). However, a state procedural default rule is adequate to preclude federal review only if it
is consistently and evenhandedly applied. Id. Whether the state procedural bar is adequate “is
itself a federal question.” Lee v. Kemna, 122 S.Ct. 877 (2002) (quotation omitted).
In the appeal at bar, the District Court acknowledged that Mi'. Barnes did not comply
with the “independent and adequate” OCCA Rule 4.2(A) and as a result, liberally, complied with
Oklahoma’s “state corrective process” of OCCA Rule 2.1(E). However, since the District Court
did not address the “equitable” means to vindicate a federal constitutional entitlement to
“effective assistance of counsel for a first appeal as of right,” the “circumstances in Holland and
Fleming were quite different than those here.” Opinion and Order at 14. Holland involved a
federal habeas petition and Fleming involved an attorney retained in seeking state postconviction
relief. Unlike Mr. Barnes’ “of right proceeding,” both cases do not implicate the constitutional
requirement of due process of law for a state created statutory appeals process requiring effective
assistance of counsel. See Baker y. Kaiser, 929 F.2d at 1499 (Having determined that [Mr.
Bames] had a constitutional right to counsel during the ten-day period for filing a notice of
appeal, we must next decide whether he was denied that right.); See also Hickman v. Spears, 160
F.3d at 1272 (We find that the short time frame in which petitioner had to perfect a certiorari
appeal under Oklahoma law did not give him sufficient opportunity to discover and develop his
!

ineffective assistance of counsel claim.
Form COA-12

Therefore, we find these procedural rules to be
Page 12

1(« •&

inadequate grounds for denying review of [Mr. Barnes’] ineffective assistance of counsel claim.
Accordingly, we address the merits of this claim despite [Mr. Barnes’] state procedural default.).
As stated above, because the State of Oklahoma applied a “subjective” standard without
an evidentiary hearing, Mr. Barnes was denied the right to file an “out-of-time” direct appealunder Oklahoma law, a belated motion to withdraw plea—when in fact, his attorney clearly
abandoned him in the ten-day critical period. Because of such erroneous finding, the Oklahoma
Court of Criminal Appeals affirmed that “the claims presented in Barnes’ post-conviction
application could have been raised on direct appeal but no such appeal was filed.” Order
Affirming at 3. Nevertheless, Mr. Barnes’ pro se attempt to vindicate Appellant’s fundamental
right to “effective assistance of counsel on first appeal as of right” proved unavailing and the
- State of Oklahoma barred-Mr. Barnes’ claims that should have been raised’with the “assistance'
of counsel for his defence.” U.S.C.A. Const, amdts. VI, XIV.
~

The United States Supreme Court explained, given that past PRECEDENTS call for a '

presumption of prejudice whenever “the accused, is denied counsel at a critical stage,” it makes
even greater sense to presume prejudice when counsel’s deficiency forfeits, an “appellate
proceeding altogether.”

Flores-Ortega, supra, 120 S.Ct. at 1038.

After all, there is no

disciplined way to “accord any ‘presumption of reliability’ ... to judicial proceedings that never
took place.” Ibid: (quoting Smith v. Robbins, 120 S.Ct. 746).

........... ’

b. Mr. Barnes suffered actual prejudice without counsel in the ten-day critical period.
Under the legal premise of the “ten-day critical period”, the State of Oklahoma, “contrary
to” Evitts v. Lucey, supra, applied a presumption of “finality” to Mr. Barnes’ conviction when
Mr. Barnes’ in fact did not intelligently, knowingly and voluntarily waive his right to appeal
under “force of statute” OCCA Rule 13, Form 13.5 in an “inadequate and ineffective”
Form COA-12

i

Page 13

O\

pioceeding of OCCA Rule 2.1(E) where Mr. Barnes’ asserted attorney error as “cause” and the
prejudice suffered was Appellant’s inability in the “State corrective process” to obtain a fair
decision on the merits under constitutionally compelled standard of review implicating “effective
counsel” rather than the subsequent “postconviction” stage which does NOT invoke the
Constitution but does invoke, first and foremost, a procedural bar; 22 O.S. § 1086 according to
Oklahoma law.
As a collateral” proceeding OCCA Rule 2.1(E) is not evenhandedly applied and State
courts did not pass upon the holding of Evitts v. Lacey in denying Mr. Barnes relief to file an out
of tune appeal. “For the state ground to be adequate, it must be ‘strictly or regularly followed,’
and applied ‘evenhandedly to all similar claims.’” Hickman v. Spears, 160 F.3d at 1271 (internal
quotation marks omitted). On the contrary, the Oklahoma courts rejected the pro se proposition
that “Petitioner did-not receive any attorney so that he could make an ‘informed decision’ about
an appeal and was uniformed about his appeal rights, and requests this [Tulsa County District]

-

Court to withdraw his pleas of guilty out of time.” Order Denying at 2. The proceeding in
question is the “critical” ten-day period after sentencing, where Mr. Barnes chose to remain in
the county jail during that period, by inference to await consultation.
The legal authority that Mr. Barnes was abandoned during the ten-day critical period is
grounded upon OCCA Rule 1.14(D)(1) to overcome the bar of OCCA Rule 4.2(A).

The

argument is that no statute of limitations bars a grant, for any reason, of a direct appeal out of
time. Thus factual inquiry” OCCA Rule 2.1(E) is distinguished from OKLA. STAT. tit. 22, §
1080 et. seq., where an Appellant being granted and/or denied an appeal through no fault of
his/her own is not one of the enumerated provisions of Section 1080, which allows the District
Court to apply the provisions of Section 1085.”
Form COA-12

I

Blades v. State, 107 P.3d 607, 608

!
I

Page 14
1 ^ “A

(Okla.Crim.App. 2005). Since application of OCCA Rule 2.1(E) can lead to relief, the District
Court’s § 2244(d)(1) is premature given the violation of a fundamental federal right to Due
Process of Law entitling Mr. Bames to “effective assistance of counsel” as analyzed by Baker v.
Kaiser.
Mr. Baker was advised of his right to appeal his burglary
conviction during the. sentencing proceeding. By itself, however,
this advice is insufficient to satisfy the right to counsel...
Defense counsel must explain the advantages and disadvantages of
an appeal...
The attorney should provide the defendant with advice about
whether there are meritorious grounds for appeal and about the
probabilities of success...
Counsel must also inquire whether the defendant wants to appeal
the conviction; if that is the client’s wish, counsel must perfect an
appeal.
Id. 929 F.2d at 1499 (emphasis added) (citations and footnote omitted). The factual finding of
the District Court is opposite from the Baker Court’s analysis and the conclusion did not rest
upon: “If a defendant does not direct the trial attorney to initiate an appeal, the attorney shall
prepare and file the form set out in Section XIII, Form 13.5, stating the defendant has been fully
advised of his/her appeal rights and does not want to appeal the conviction.” OCCA Rule
1.14(D)(1). Moreover, the State of Oldahoma utilized the silent record to infer that Mr. Bames’
waiver was sufficient under federal standards. However, the silent record is also, in Mr. Bames’
• favor, devoid of the affirmative waiver form to be “verified” by trial counsel “in all cases.” The
federal law is clear on this point: “[t]he record must show, or there must be an allegation and
evidence which show, that an accused was offered counsel but intelligently and understandingly
rejected the offer. Anything less is not waiver.” Carnleyv. Cochran, 369 U.S. 506, 513 (1962)
Conclusion

Form C0A-12

Page IS
\

Wherefore, the actual controversy for REMAND, as sufficient reason, to be settled is
whether Mr. Barnes is actually entitled to a first appeal as of right and to effective assistance of
counsel for his first appeal as of right, where it is clear and not by inference that Mr. Barnes
never affirmatively waived his right to appeal. It is subject to reasonable debate that “ineffective
assistance of counsel can be “any reason” justifying the Mr. Barnes was denied an “appeal
through no fault of his own.

As such, OCCA Rule 2.1(E)’s “State corrective process” is not

evenly applied to “ineffective assistance of counsel” claims during the ten-day critical period
requiring the presence of counsel, according to OCCA Rule 1.14(D) of Oklahoma law “having
force of statute.”
b.

Second Issue. Claim of error and supporting arguments:

The nature of Appellant’s claims is an exception to AEDPA’s statute of limitations bar.
The District Court, determined that § 2244(d)(1) applied to Mr. Barnes’ “double­
jeopardy claims. The District,Court relied on the unpublished proposition that “due process
claims are subject to dismissal for untimeliness on habeas review,” citing Morales v. Jones, 417
F.App’x. 746, 749 (10th Cir. 2011). Order and Opinion at 12. In the Petition, Mr. Barnes raised
two issues: “I. The information filed by the [Sjtate violated the Double Jeopardy Clause of the
Sixth Amendment because it resulted in multiple convictions and sentences for one single
impulse and crime; and II. The plea wasn’t a knowing, intelligent, and deliberate choice, and

•

there isn’t a factual basis and understanding that makes the plea questioned and the verdict
suspect.” Opinion and Order at 5; see also Ibid. n. 5.

Of course, in the change of plea

proceeding, [i]t is beyond dispute that a guilty plea must be both knowing and intelligent. See,
e.g., Boykin, 395 U.S. at 242, 89 S.Ct., at 1711; McCarthy v. United States, 394 U.S. 459, 466,
89 S.Ct. 1166,1171, 22 L.Ed.2d 418 (1969).” Parke v. Raley, 113 S.Ct. 517, 523 (1992).
Form COA-12

Page 16

d'O 71

In Coleman v. Thompson, the United States Supreme Court made explicit that “federal
habeas review of the claims is barred unless the prisoner can demonstrate cause for the default
and actual prejudice as a result of the alleged violation of federal law, or demonstrate that failure
to consider the claims will result in a fundamental miscarriage of justice.” Id. Ill S.Ct. 2546,
2565 (1991).

See also Trevino v. Thaler, 133 S.Ct. 1911, 1921 (2013) (applying narrow

exception of Coleman v. Thompson “to state procedural framework, by reason of its design and
operation, makes it highly unlikely in a typical case that a defendant will have a meaningful
opportunity to raise a claim of ineffective assistance of trial counsel on direct appeal.); cf. Hill v.
Lockhart, 106 S.Ct. 366, 370 (1985) (We hold, therefore, that the two-part Strickland v.
Washington test applies to challenges to guilty pleas based on ineffective assistance of counsel.).
In the appeal at bar, distinguished from Coleman v. Thompson, Mr. Barnes seeks the
remedy of a belated appeal “as of right” implicating “effective assistance of counsel” which-~
constitutionally “allows an appellate court to consider the appeal as that court otherwise would
have done—on direct review, and assisted by counsel’s briefing.” Garza v. Idaho, 139 S.Ct. at
749. Due to the distinction of “cause for the default and actual prejudice as a result of the
alleged violation of federal law,” Mr. Barnes asserts the “failure-to-consult” standard under Roe
v. Flores-Ortega, 120 S.Ct. 1029 (2000). The Flores-Ortega Court held “that counsel has a
constitutionally-imposed duty to Consult with the defendant about an appeal where thfere is
reason to think either (1) that a rational defendant would want to appeal (for example, because
there are nonfrivolous grounds for appeal), or (2) that this'particular defendant reasonably
demonstrated to counsel that he was interested in appealing.” Id. 120 S.Ct at 1036. As
demonstration, the facts infer that Mr. Barnes chose to stay in the county jail during the ten-day,
presumptively to be provided “counsel to explain the advantages and disadvantages” about filing
Form COA-12

Page 17

an “application to withdraw plea setting forth in detail the grounds for withdrawal of the plea.”
OCCA Rule 4.2(A).
The “Double-Jeopardy” at issue in Mr. Barnes particular case, under its particular facts is
that the State of Oklahoma initially charged Appellant “in Count 2 with first degree felony
murder, in violation of OKLA. STAT. tit. 21, § 701.7, but die State orally amended the charge to
second degree felony murder as part of the plea agreement.” Id. at 2, n. 1. However, “second
degree felony murder” in violation of OKLA. STAT. tit. 21, § 701.8(2), is predicated upon “a
person engaged in the commission of any felony other than the unlawful acts set out in
Section 1, subsection B, of this act.” Id. To be sure, the District Court acknowledged that Mr.
Barnes entered negotiated pleas of guilty to second degree felony murder; first degree burglary;
robbery with a dangerous weapon; and knowingly concealing or receiving'stolen property.”"
Ibid.

Because Mr. Barnes’-“Due Process of Law” claim goes ■ to the validity and

unconstitutionality of his conviction, Morales v. Jones, 417 F.App’x. 746,749 (10th Cir:2011)"is
inapposite.
1. As a matter of law, Mr. Barnes’s pleas of guilty are in fact involuntary and unintelligent
under clearly established federal law thus constituting a structural error without the
adequate notice requirement.
No doubt without actual notice of “elements” of the charge of “second' degree felony
murder and the consequences of that punishment, Mr. Barnes’ pleas were not truly voluntary.
See Henderson v. Morgan, 96 S.Ct. 2253, 2260 (1976) (Since respondent did not receive
adequate notice of the offense to which he pleaded guilty, his plea was involuntary and the
judgment of conviction was entered without due process of law.); Hicks v. Franklin, 546 F.3d
1279, 1287 (2008) (In sum, the record contains no evidence to support a finding that Mr. Hicks
received notice that a depraved mind was an element of murder in the second degree. Therefore,
Form COA-12

Page 18

the state court applied existing Supreme Court precedent by refusing to apply the principles of
Henderson to these facts, given that the context of thi s case is closely analogous to Henderson.).
This Court has determined, in accordance with Oklahoma law, that “[o]nce the state has
established that a defendant used a dangerous weapon in the course of a robbery that results in
death, the offense of second degree murder is no longer an option under Oklahoma law.” Wilson
v. Sirmons, 536 F.3d 1064, 1103 -04 (citations omitted); Lambert v. Workman, (Not Reported)
2009 WL 1941971, at *15. In the Plea of Guilty, Summary of Facts Form, Mr. Barnes—with
assistance of counsel—waived the right

to have a record made of the proceedings. The

bare record reflects that the only “notice” was “Felony Murder, 2nd” next to the question “Is
there a plea agreement?” on page 3 and “Amended to Felony Murder, 2” on page 5. To the
opposite, Mr. Barnes’ misunderstanding is evident on page 1: “Felony Murder, 2TO.S. 701.7”
and page 2: “minimum Life maximum LWOP.”

. . _ _ ■ __

- However,- without “real notice,” in an amended information or record" colloquy, Mr.
Bames clearly did not have an understanding of (1) “Homicide is murder in the second degree ...
When perpetrated by a person engaged in the commission of any felony other than the unlawful
acts set out in Section 1, subsection B, of this act,” OKLA. STAT. tit. 21, § 701.8(B) and (2) “A
person who is convicted or pleads guilty to or nolo contendere to murder in the second degree
shall be guilty of a felony punishable by imprisonment in a state penal institution for not less
than ten (10) years nor more than life,” OKLA. STAT. tit. 21, § 701.9(B).
In contrary to clearly established law, Mr. Barnes’ did not receive “real notice” of the
charge when he was NOT “informed of both the nature of the charge to which he is pleading
guilty and its elements.” Hicks v. Franklin, 546 F.3d at 1284 (citing Henderson, 426 U.S. at
644-47, 96 S.Ct. 2253.). Accordingly, “[wjhere a defendant pleads guilty to a crime without
Form COA-12

Page 19

kH

having been informed of the crime’s elements, [the voluntary, knowing, and intelligent] standard
is not met and the plea is invalid.” Ibid.

Subsequently, the conviction, is constitutionally

impermissible and cannot stand.
As a structural matter, any conviction predicated upon an invalid plea cannot stand for “a
plea of guilty and the ensuing conviction comprehended all of the factual and legal elements
necessary to sustain a binding, final judgment of guilt and a lawful sentence.” United States v.
Broce, 109 S.Ct. 757, 762 (1989). According to the principles set forth in Henderson v. Morgan,
supra and Hicks v. Franklin, supra “real notice” is a prerequisite to the “basic protections,
without which a criminal [change of plea proceeding] cannot reliably serve the function as a
vehicle for determination of guilt or innocence.” United States v. Pearson, 203 F.3d 1243, 1260
(10th Cir. 2000).
.......

Similar to the “actual innocence” exception to AEDPA, Mr. Barnes’ exception is
predicated upon constitutional principles concerning Appellant’s “invalid” conviction predicated upon his pleas of guilty” to a crime that no longer became an option under Oklahoma law in
violation of both Henderson and Hicks, supra. Surely “factual innocence” must comprehend the
“legal elements necessaiy to sustain a binding, final judgment of guilt and a lawful sentence.”
Similarly, [i]n this case the defendant’s factual guilt of second-degree murder has never been

established in any fashion permitted by the Due Process Clause of the Fourteenth Amendment.”
Henderson, supra, 96 S.Ct. at 2260. Cf. McQuiggin v. Perkins, 133 S.Ct. 1924 (2013) (The
miscarriage ofjustice exception, our decision bear out, survived AEDPA’s passage.).' '
Under authority of Henderson, “such a plea cannot support a judgment of guilt unless it
was voluntary in the constitutional sense. And clearly the plea could not be voluntary in the
sense that it constituted an intelligent admission that he committed the offense unless the
Form COA-12

Page 20
h

defendant received ‘real notice of the true nature of the charge [of second degree felony murder]
;

against him, the first and most universally recognized requirement of due process.” Id. 96 S.Ct.
at 2257 (footnote omitted) (citation omitted).
As a matter of law, a certificate of appealability should issue as to the fact that Mr.
Barnes was initially charged with Count 2: FELONY MURDER, a Felony, by unlawfully,
feloniously, and willfully which acting in concert each with the other and during the commission
of a Robbery With a Dangerous Weapon and First Degree Burglary without authority of law;
Count 3: BURGLARY - FIRST DEGREE; Count 4: ROBBERY WITH A WEAPON; and
Count 5: KNOWINGLY CONCEALING/RECEIVING STOLEN PROPERTY; but pled guilty
to SECOND DEGREE FELONY MURDER without the required notice, when the state sought
to establish—by concession—that a dangerous weapon was utilized in the course of a robbery
that results in death.
2. One reason a rational defendant might want to appeal is if there are nonfrivolous
grounds for doing so.
With regard to prejudice, Flores-Ortega held that, to succeed in an ineffective-assistance
of counsel claim in this context, Mr. Bames need only make only one showing:'“that, but for
counsel s deficient failure to consult with him about an appeal, he would have timely appealed.”
Id. 120 S.Ct. at 1039. However, under Oklahoma law, before the “appeal” can be realized, there
must be a “hearing” on the application to withdraw plea, OCCA Rule 4.2(A), which does not
necessarily provide for a separate attorney. This Court has determined that “[cjritically, in
determining whether a rational defendant would want to appeal, ‘courts must take into account
all the information counsel knew or should have known.” Smith v. Although, 921 F.3d 1261,
1269 (10th Cir. 2019). It must be noted that Smith, supra applied for and was denied an appeal
out of time as well.
Form COA-12

Page 21

K6 ^

Here, Bames contends that his attorney had a duty to consult with him about an appeal
because-the attorney knew or should have known about a nonfrivolous ground for appeal_
namely, that Barnes’ attorney was ineffective in providing him with an incorrect understanding
of the law in relation to the facts of his case under clearly federal established law of Henderson
v. Morgan, 96 S.Ct. 2253 (1976) and applied by this Court in Hicks v. Franklin, 546 F.3d 1279
(10 Cir. 2008). See Smith v. Allbaugh, 921 F.3d at 1270 (A rational defendant would have
wanted to appeal because there was a nonfrivolous issue to raise in that appeal. See FloresOrtega, 528 U.S. at 480, 120 S.Ct. 1029. And because Smith’s second attorney knew or should
have known about this nonfrivolous issue, she had a duty to consult with Smith about an
appeal.).
Therefore, Bames’ attorney had a constitutional duty to inform him that the Tulsa County
District Court was without authority to adjudge Appellant guilty of “second degree felony
murder” without first providing him notice of the elements and apprising him-of the underlying
felonies “other than the unlawful acts set out in Section 1, subsection B, of this act:” OKLA.
STAT. tit. 21, § 701.8(B). Moreover, “taking account into what counsel knew or should have
known” Henderson v. Morgan, supra and Hicks v, Franklin, supra were PRECEDENT prior to
Mr. Bames’ conviction.
The reality is that plea bargains have become so central to the administration of the '; '
criminal justice system that defense counsel have responsibilities in the plea bargain process,
representation that must be met to render the adequate assistance of counsel that the Sixth
Amendment requires in the criminal process at critical stages. See Missouri v. Frye, 132 S.Ct.
1399, 1407 (2012).

Form COA-12

‘Similarly, it is too late in the day to permit a guilty plea to be entered

Page 22

against a defendant solely on the consent of the defendant’s agent, his lawyer.” Henderson,
supra, 96 S.Ct. at 2260.

...

Conclusion
Respectfully, the District Court erred in its analysis of Mr. Barnes’ inartful pro se
“double-jeopardy” claim. Because Mr. Barnes’ waived his right to trial, the “factual guilt” to be
established is “by the defendant’s own solemn admission ‘in open court that he is in fact guilty
of the offense with which he is charged,’ by plea of guilty. This rule, federal and state, is limited
to attacks on the voluntary and intelligent nature of the plea. Because Mr. Barnes’ plea is
involuntary as a matter of law, his conviction cannot stand as a matter of constitutional law under
the miscarriage of justice exception to AEDPA.
5. Do you think the District Court applied the wrong laws? E Yes
If so, what law do you want applied?

CH No

:.'z ~

Evitts v. Lucey, 105 S.Ct. 830 (1985); Baker v. Kaiser, 929 F.2d 1495 (10th Cir. 1991); United
States v. Reyes-Espinoza, 754 Fed.Appx. 752 (10th Cir. 2018); Roe v. Flores-Ortega, 120 S.Ct.
1029 (2000). Smith v. Although, 921 F.3d 1261, 1269 (10th Cir. 2019); McQuiggin v. Perkins,
569 U.S. 383, 133 S.Ct. 1924, 185 L.Ed.2d 1019 (2013); Henderson v. Morgan, 426 U.S. 637,
96 S.Ct. 2253, 49 L.Ed.2d 108 (1976); Hicks v. Franklin, 546 F.3d 1279 (10th Cir. 2008).
6. Did the District Court incorrectly decide the facts?
If so, what facts?
,

IE Yes □ No

Mr. Bames deliberately chose to remain in the county jails during the ten-day critical period.
7. Did the District Court fail to consider important grounds for relief? E Yes
If so, what grounds?

-

Q No

Mr. Bames was charged by information to first-degree felony murder with the underlying
offense of robbery with a weapon and first degree burglary. Mr. Bames pled guilty to “seconddegree felony murder” without the notice requirement of the “elements” and “direct
Form COA-12

Page 23

consequences.” Mr. Barnes was convicted of a crime to which there is no legal basis, or that his
plea was invalid as a matter of law.
8. Do you feel that there are any other reasons why the District Court’s judgment was
wrong?
Yes O No
If so, what?
The Court acknowledged that the State of Oklahoma could “reset” AEDPA’s statute of
limitations, however, it did not pass upon the question where attorney error—federal question_
and lack of affirmative waiver—federal question—could overcome OCCA Rule 2.1(E).
9. Do you think the Court should hear oral argument in your case? 3 Yes
If so, why?

Q No

If the right to effective assistance of counsel for defendant’s first appeal as of right is grounded
in the Due Process Clause, then does OCCA Rule 4.2(A) require a separate counsel where filing
of the “motion to withdraw plea” is not purely “ministerial” but “substantial.” In addition,
because Mr. Barnes’ defaulted OCCA Rule 4.2(A), considered part of the direct review process,
whether OCCA Rule 4.2(A) is in fact “a critical period” entitling Mr. Barnes to' “effective counsel during that period available for, not appeal, but to file a pleading “setting forth in detail”
“the errors of law urged as having been committed during the proceeding in the trial court which
were raised in the application to withdraw plea.” OCCA Rule 4.3(C)(5).
Subsequently, because OCCA Rule 4.2(A) is “consistently and evenhandedly” applied as
an adequate “Rule,” whether implication of another rule, OCCA Rule 1.14(D)(1), entitled “Trial
Counsel Responsibility ’ is also self-determmate as “consistently and evenhandedly” applied
through the principle of “presumption of regularity,”, and whether violation of OCCA Rule
1.14(D)(1) can be equated to “cause and prejudice” rather than “through no fault of hisfiier own.”
10. Relief Requested. (State what you are asking this court to do.)

Form COA-12

Page 24

Mr. Barnes respectfully request that this Honorable Court issue a Certificate of
Appealability into (1) the inadequacy of Rule 2.1 (E), Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2011) to vindicate Appellant’s right to effective of assistance of
counsel for his first appeal as of right and (2) Mr. Barnes’ invalid plea as a matter of law is an
exception to AEDPA under the miscarriage ofjustice standard.
As a remedy, Mr. Barnes seeks REMAND back to the District Court for determination
that Appellant’s appeal should be reinstated on the ground that Mr. Barnes received ineffective.
assistance of counsel and whether the simplistic reference to “Felony Murder, 2nd” is sufficient
to provide actual notice; or any relief this Court deems just and proper.

I

Date:l) \ / f(^/20,ZS.
Respectfully Submitted,

A^le(^ Bqrrie.5 ODOC
DCCC
129 Conner Road
Hominy, Oklahoma 74035

Form COA-12

Page 25

FILL OUT AND SIGN EACH OF TH E FOLLOWING TWO SECTIONS

I affirm under the penalty of perjury that I placed this Appellant’s Combined opening Brief and
Application for Certificate of Appeal ability with first-class postage prepaid in the prison mail
system or, if I was not incarcerated, in the United States Mail, addressed to the Clerk of The U.S. '
Court of Appeals for the Tenth Circuit, 1823 Stout Street, Denver Colorado 80257. In addition, I
hereby certify that a copy of this form was placed with first class postage prepaid I the prison
mail system or, if I was not incarcerated, in the United States Mail, addressed to:
Tessa L. Henry, OBA #33193
Assistant Attorney General
State of Oklahoma
313 NE 21st Street
Oklahoma City, OK 73105
(identify the name and address of the opposing governmental attorney)
on the following date:

month 0

I lo

XbX.0

day

year .

signature

I certify that the total number of pages I am submitting as my Appellant’s Combined Opening
Brief and Application for a Certificate of Appealability is 30 pages or less or alternatively, if the
total number of pages exceeds 30,1 certify that I have counted the number of words and the total
is 8,102, which is less than 14,000. I understand that if my Appellant’s Combined Opening Brief
and Application for a Certificate of Appealibility exceeds 14,000 words, my brief may stricken" —
and the appeal dismissed.
i

}

Month Qs
Form COA-12

jig

XoXQ

day

year

signature
Page 26

!

7A

Bames v. Dowling | WestlawNext

Page 1 of 8

WESTLAW
Barnes v. Dowling
United States District Court, N.D. Oklahoma. ■ November 4, 2019 ; Slip Copy ; 2019 WL 5697187 (Apprux. 9 pages)

2019 WL 5697187
Only the Westlaw citation is currently available.
United States District Court, N.D. Oklahoma.
Adelso BARNES, Petitioner,
v.
Janet DOWLING, Respondent.
Case No. 19-CV-0097-JED-FHM
Signed 11/04/2019
Attorneys and Law Firms
Adelso Barnes, Hominy, OK, pro se.
Diane L. Slayton, Office of the Attorney Genera, Tessa L. Henry, Attorney General of
Oklahoma, Oklahoma City, OK, for Respondent.
OPINION AND ORDER
JOHN E. DOWDELL, CHIEF JUDGE
"1 Petitioner Adelso Barnes, a state inmate appearing pro se, brings this 28 U.S.C. § 2254
habeas corpus action to challenge the constitutional validity of the judgment and sentence
entered against him in the District Court of Tulsa County, Case No. CF-2009-5867. In that
case, Petitioner pleaded guilty to second degree felony murder, first degree burglary,
robbery with a dangerous weapon, and knowingly concealing or receiving stolen property. In
accordance with the negotiated plea agreement, the trial court imposed prison terms of 35
years, 20 years, 35 years, and 5 years, with all sentences to be served concurrently. Before
the Court is Respondent's motion (Doc. 7) to dismiss the petition as time-barred under 28
U.S.C. § 2244(d)(1)'s one-year statute of limitations. Respondent filed a brief in support of
the motion (Doc. 8), and Petitioner filed a response (Doc. 9). On consideration of the parties'
briefs and the case materials, the Court grants Respondent's motion and dismisses the
petition for writ of habeas corpus, with prejudice, as time-barred.
I.
On February 28, 2011, in the District Court of Tulsa County, Case No. CF-2009-5867,
Petitioner, represented by counsel, entered negotiated pleas of guilty to second degree
felony murder, in violation of OKLA. STAT. tit. 21, § 701.8 (Count 2);' first degree burglary,
in violation of OKLA. STAT. tit. 21, § 1431 (Count 3); robbery with a dangerous weapon, in
violation of OKLA. STAT. tit. 21, § 801 (Count 4); and knowingly concealing or receiving
stolen property, in violation of OKLA. STAT. tit. 21, § 1713 (Count 5). Doc. 1, at 1 -2; Doc.
1 -1, at 93-100; Doc. 8-6, at 2.2 That same day, the trial court accepted his pleas, adjudged
him guilty, and, in accordance with the plea agreement, imposed prison terms of 35 years,
20 years, 35 years, and 5 years, with all sentences to be served concurrently. Doc. 1-1, at
96-97; Doc. 8-6, at 2. The trial court advised Petitioner of his appeal rights, and Petitioner
indicated on his written plea form that he understood those rights. Doc. 1-1, at 98; Doc. 8-6,
at 2, 4. Petitioner did not move to withdraw his pleas within 10 days of sentencing or
otherwise pursue a timely certiorari appeal with the Oklahoma Court of Criminal Appeals
(OCCA). Doc. 1, at 2; Doc. 8-6, at 2.
Ten months after his sentencing, on December 29, 2011, Petitioner filed a motion for judicial
review, pursuant to OKLA. STAT. tit. 22, § 982a, asking the state district court to reduce his
sentence. Doc. 8-2, at 1 -6. The court denied the motion on January 6, 2012. Doc. 8-3, at 1.3
Petitioner filed a motion for suspended sentence on May 9, 2013, pursuant to OKLA. STAT.
tit. 22, § 994, citing his status as a first-time offender and prison overcrowding and asking
the state district court to suspend his sentence. Doc. 8-4, at 1. The court denied that motion
on June 21, 2013. Doc. 8-5, at 1.
*2 Just over four years later, on July 13, 2017, Petitioner filed an application for
postconviction relief in state district court, pursuant to OKLA. STAT. tit. 22, § 1080, and
submitted several supporting documents and affidavits. Doc. 1-1, at 17-179. Petitioner styled

https://nextcorrectional.westlaw.com/Document/I72355040ffb911e99eel83d6367a96f2/Vie ... 7/9/2020

■ i

Bames v. Dowling | WestlawNext

Page 2 of 8

his application as one seeking: postconviction relief, an appeal out of time, to withdraw his
guilty pleas out of time, an evidentiary hearing, a resentencing hearing, and “to strike
information CF-2009-5867 [as] a nullity.’ Id. at 18. By order filed October 24, 2017, the state
district court denied his application. Doc. 8-6, at 1-10. In doing so, the court construed the
application as raising five propositions:
I. Ineffective assistance of counsel resulted in an unknowing, unintelligent, and so very not
voluntary guilty plea being entered.
II. Petitioner did not receive any attorney so that he could make an “informed decision"
about an appeal and was uninformed about his appeal rights, and requests this [c]ourt
to withdraw his pleas of guilty out of time.
III. Newly discovered evidence shows that the factual basis for Petitioner's pleas is
insufficient.
IV. Petitioner deserves to demonstrate that he belongs in the protected class of offenders
who committed their crimes due to transient immaturity and impetuosity because their
brains had not yet developed and therein are not as culpable as an adult.
V, Petitioner makes motion to strike the Information as a nullity (void on its face).
Doc. 8-6, at 2-3. The state district court treated Petitioner's second proposition as a request
for a recommendation to file an appeal out of time and denied that request. Id. at 3-4. The
court found (1) the record demonstrated Petitioner was advised of his appeal rights, (2) the
record contradicted Petitioner's “claim that he had no access to an attorney to be able to file
a motion to withdraw his pieas of guilty had he indicated he wished to do so," and (3)
Petitioner “failed to allege any specific facts that support that he attempted to communicate
with his attorney" regarding a desire to.appeal. Doc. 8-6, at 4. Thus, the court concluded,
Petitioner “fail[ed] to provide a sufficient reason for his failure to perfect an appeal." Id. The
court further found that Petitioner was not entitled to postconviction relief because his
"propositions could have been raised within a petition for writ of certiorari following the denial
of an application-to withdraw plea, and [were] thus waived.” Id. at 5. Alternatively, the court
found that Petitioner's third and fourth propositions lacked merit. Id. at 6-8. As to the third
proposition, the court found Petitioner "failed to demonstrate how the factual basis for the
plea and the circumstances underlying the crime could not have been discovered before trial
with due diligence." Doc. 8-6, at 6-7. As to the fourth proposition, the court found Petitioner
was not entitled to relief because he was "eighteen years of age when he committed [his]
crimes, and he was not sentenced to life without the possibility of parole." Id. at 7-8. Finally,
the court denied Petitioner's requests for counsel and an evidentiary hearing. Id. at 8.
Petitioner filed a timely postconviction appeal. Doc. 1-1, at 215-36. In an order filed March
13, 2018, in Case No. PC-2017-1106, the OCCA affirmed the order denying postconviction
relief and denying Petitioner's request for leave to file an appeal out of time. Doc. 8-7, at 1-6.
The OCCA found that Petitioner "provid[ed] no facts or supporting evidence indicating that
he sought and was denied counsel, that he expressed an interest in contacting counsel to
facilitate an appeal and the request was ignored, or that he expressed any desire, prior to
the filing of [his] request for post-conviction relief, to withdraw his guilty plea." Id. at 2. Like
the state district court, the OCCA found Petitioner's “claims of newly discovered evidence
and entitlement to-treatment status in some category other than an adult... to be without
merit." Id. at 4-5.
*3 Petitioner filed the instant federal habeas petition (Doc. 1) on February 21, 2019,4 along
with supporting documents (Doc. 1-1). In the petition, he identifies two specific grounds for
federal habeas relief:
I. The information filed by the [S]tate violated the Double Jeopardy Clause of the Sixth
Amendment because it resulted in multiple convictions and sentences for one single
impulse and crime.
II. The plea wasn't a knowing, intelligent, and deliberate choice, and there isn't a factual
basis and understanding that makes the plea questioned and the verdict suspect.
Doc. 1, at 12, 14.5
Respondent contends the habeas petition should be dismissed as time-barred under 28
- U.S.C. § 2244(d)(1)(A) because Petitioner failed to file the petition within one year of the
date his conviction became final, even with the benefit statutory tolling under 28 U.S.C. §

https://nextcorrectional.westlaw.com/Document/I72355040ffb911e99eel83d6367a96f2/Vie...

7/9/2020

Bames v. Dowling | WestlawNext

Page 3 of 8

2244(d)(2), and Petitioner has not demonstrated any circumstances that would support
equitable tolling of the one-year limitation period. Doc. 8, at 3-10.
"4 Petitioner contends his petition cannot be time-barred because (1) he alleges a Brady
claim arising from the prosecutor's failure to disclose exculpatory evidence, (2) the MennaBlackledge doctrine permits him to bring his double-jeopardy claim, and any other
challenges to the trial court's subject matter jurisdiction "at any time,” and (3) he is entitled to
equitable tolling because his trial counsel's ineffectiveness constitutes “cause and prejudice’
for his failure to comply with state procedural rules. Doc. 1, at 14, 21; Doc. 9, at 1-11.
II.
The Antiterrorism and Effective Death Penalty Act (AEDPA), enacted in April 1996, imposes
a one-year limitation period for a state prisoner seeking federal habeas relief from a statecourt judgment. 28 U.S.C. § 2244(d)(1). Generally, that limitation period commences on "the
date on which the judgment became final by the conclusion of direct review or the expiration
of the time for seeking such review.’ Id. § 2244(d)(1)(A). Under some circumstances, the
one-year limitation period may commence on a later date. Id. § 2244(d)(1)(B), (C), (D).
Regardless of when the one-year limitation period commences, that period is tolled by
statute for “[tjhe time during which a properly filed application for State post-conviction or
other collateral review with respect to the pertinent judgment or claim is pending.” Id. § 2244
(d)(2). Because the AEDPA's one-year limitation period is not jurisdictional, federal courts
have discretion to toll the limitation period for equitable reasons, Holland v. Florida, 560 U.S.
631,645 (2010), and to excuse non-compliance with the statute of limitations if the prisoner
makes “a credible showing of actual innocence,” McQuiggin v. Perkins, 569 U.S. 383, 392
(2013).
A. The petition is untimely under § 2244(d)(1)(A).
Respondent contends, and Petitioner concedes, that the habeas petition is untimely under §
2244(d)(1)(A). Doc. 1, at 14, 21; Doc. 8, at 1-3. The Court agrees. Because Petitioner did
not move to withdraw his pleas within 10 days of his February 28, 2011 sentencing hearing
or otherwise pursue a timely certiorari appeal, and did not obtain leave to file an out of time
appeal, his conviction became final on March 10, 201 i, ten days after sentencing. See Clark
v. Oklahoma, 468 F.3d 711, 713 (10th Cir. 2006) (discussing Oklahoma law); see also
Jimenez v. Quarterman, 555 U.S. 113, 120-21 (holding that "where a state court grants a
criminal defendant the right to file an out-of-time direct appeal during state collateral review,
but before the defendant has first sought federal habeas relief,’ the state-court judgment
does not become final under § 2244(d)(1)(A) until “the conclusion of the out-of-time direct
appeal, or the expiration of the time for seeking review of that appeal”). Applying § 2244(d)
(1)(A), Petitioner therefore had until March 12, 2012, to file a timely federal habeas petition.
See Harris v. Dinwiddie, 642 F.3d 902, 907 n.6 (10th Cir. 2011) (discussing calculation of
AEDPA's one-year limitation period).6 Fie did not file his federal habeas petition until
February 21,2019, nearly seven years after the filing deadline.
And, as Respondent contends, statutory tolling does not render the petition timely. As
previously stated, the one-year limitation period is statutorily tolled while "a properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending." 28 U.S.C. § 2244(d)(2). Petitioner filed a motion for judicial
review within the one-year period. See Clark, 468 F.3d at 714 ("Only state petitions for post­
conviction relief filed within the one year allowed by AEDPA will toll the statute of .
limitations.”). But that motion was pending for only nine days because Petitioner filed it on
December 29, 2011, and the state district court denied it on January 5, 2012. Doc. 8-2, at 1;
Doc. 8-3, at 1. This extended Petitioner's deadline for filing a timely federal habeas petition
to March 21, 201,2. And neither the motion for suspended sentence Petitioner filed on May 9,
2013, nor the application for postconviction relief he filed on July 13, 2017, had any tolling
effect because Petitioner filed both after his one-year limitation period expired. See Clark,
468 F.3d at 714. As a result, even with the benefit of.statutory tolling, Petitioner's federal
habeas petition, filed on February 21, 2019, is untimely under § 2244(d)(1)(A).
5 Absent a later commencement date or a basis for equitable tolling, the habeas petition is
time-barred.
B. The petition is untimely under § 2244(d)(1)(D).
Generously construing Petitioner's arguments in his petition and response, Petitioner may be
seeking a later commencement date under 28 U.S.C. § 2244(d)(1)(D). Under that provision,
the one-year limitation period commences on "the date on which the factual predicate of the

https://nextcorcectional.westlaw.com/Document/I72355040ffb911e99eel83d6367a96f2/Vie... 7/9/2020

Bames v. Dowling | WestlawNext

Page 4 of 8

claim or claims presented could have been discovered through the exercise of due
diligence.”
Petitioner contends his one-year limitation period commenced on April 27, 2017, when
“these claims and the facts and information that trigger them ... [were] revealed post-trial
when the girlfriend of Bames, Precious Isaac, found and mailed [to Petitioner] the OCCA
Opinion of Sulvetta v. State, No. F. 2011-591." Doc. 1, at 14. In context, Petitioner seems to
allege that he discovered new “facts and information” in April 2017, relating to his claim that
his guilty pleas were not knowing and voluntary and that there is no factual basis for his
guilty pleas. Id. at 14-16. But it is clear from the record that Sulvetta was Petitioner's co­
defendant and that the OCCA issued its decision affirming her convictions in March 2013.
Doc. 1-1, at 101-10. The Court finds it highly doubtful that Petitioner could not have, with
reasonable diligence, discovered the Sulvetta opinion or the “facts and information” therein
before April 2017.
Nevertheless, accepting for the sake of argument that § 2244(d)(1)(D) applies and that
Petitioner's one-year period commenced on April 27, 2017, Petitioner would be eligible for
statutory tolling of that one-year period for 78 days—between July 13, 2017, when he filed
his application for postconviction relief in state district court, and March 13, 2018, when the
OCCA affirmed the denial of postconviction relief. See 28 U.S.C. § 2244(d)(2); Clark, 468
F.3d at 714. Beginning the next day, March 14, 2018, Petitioner would have had 287 days,
or until December 26, 2018,7 to file a timely federal habeas petition. As discussed,
Petitioner did not file his habeas petition until February 21,2019. Thus, even assuming the
one-year period commenced at a later date under § 2244(d)(1)(D), and giving Petitioner the
benefit of statutory tolling for that one-year limitation period, Petitioner filed his habeas
petition 58 days too late.8
Thus, to the extent Petitioner seeks application of § 2244(d)(1)(D), his habeas petition is
untimely.
C. The nature of Petitioner's habeas claims does not bar application of § 2244(d)(1).
Next, Petitioner contends that § 2244(d)(1)'s one-year statute of limitations does not apply to
his habeas petition based on the nature of his claims. In his petition, he specifically asserts
that the one-year limitation period “does not apply" because he raises “two issues of law
which can NEVER BE WAIVED and can be raised and argued in the initial collateral
proceeding: (1) Failure to show jurisdiction (subject or venue) and (2) Failure to charge an
offense ... and also,... the State's failure to meet evidencing the material essential elements
required at best” Doc. 1, at 5. Though not clear, these assertions appear to refer to
Petitioner's double-jeopardy claim, which he alleges implicates the trial court's subjectmatter jurisdiction, and his claim that there is no factual basis to support his guilty pleas: Id.
at 12-14. To support his position, Petitioner cites the Menrta-Blackledge doctrine and Class
v. United States, 138 S. Ct. 798 (2018). Id. at 4-5,12, 21-22. In his response, Petitioner
further asserts that the statute of limitations does not apply because he raises a Brady claim.
Doc. 9, at 1-5.
*6 For two reasons, the Court rejects Petitioner's argument that the AEDPA's statute of
limitations does not apply. First, contrary to his contention, there is no time-bar exception for
double-jeopardy claims. As a general rule, "a voluntarily and intelligent plea of guilty made
by an accused person, who has been advised by competent counsel, may not be collaterally
attacked." United States v. Brace, 488 U.S. 563, 574 (1989) (quoting Mabry v. Johnson, 467
U.S. 504, 508 (1984)). As Petitioner contends, there are exceptions to this general rule.
Under the Menna-Blackledge doctrine, “a plea of guilty to a charge does not waive a claim
that—judged on its face—the charge is one which the State may not constitutionally
prosecute." Brace, 488 U.S. at 575 (emphasis in original) (quoting Menna, 423 U.S. at 62).
In Class, the Supreme Court considered “whether a guilty plea by itself bars a federal
criminal defendant from challenging the constitutionality of the statute of conviction on direct
appeal.” 138 S. Ct. at 803. The Court held that it did not. Id. In reaching that holding, the
Supreme Court stated that it “reaffirmed the Menna-Blackledge doctrine and refined its
scope” in Brace where it “repeated that a guilty plea does not bar a claim on appeal 'where
on the face of the record the court had no power to enter the conviction or impose the
sentence.' ” Class, 138 S. Ct. at 804 (quoting Brace, 488 U.S. at 569). Nonetheless, to the
extent Petitioner relies on Class, Broce, or the Menna-Blackledge doctrine to support his
contention that the AEDPA one-year limitation period does not apply to double-jeopardy
claims, that reliance is misplaced. These cases hold that a guilty plea does not, in and of
itself, preclude a criminal defendant from raising certain constitutional claims to collaterally
attack his or her convictions. See, e.g., Class, 138 S. Ct. at 803-07. But none of these cases

https://nextcorrectional.westlaw.com/Document/I72355040ffb911e99eel 83d6367a96f2/Vie... 7/9/2020

v

Barnes v. Dowling | WestlawNext

Page 5 of 8

required the Supreme Court to determine whether a habeas petitioner's claims challenging
the constitutional validity of a state-court judgment entered following a guilty plea were, or
could be, barred by § 2244(d)(1)'s statute of limitations. In Blackledge, the Supreme Court
considered whether a state prisoner's guilty plea barred him from raising constitutional
claims in a federal habeas proceeding. 417 U.S. at 29-32. But that case was decided in
1974, over 20 years before Congress enacted the AEDPA's statute of limitations in 1996.
See 28 U.S.C. § 2244(d)(1); Blackledge, 417 U.S. at 21. Like Petitioner, the defendant in
Menna challenged a state-court judgment, but he did so by seeking direct review in state
court and direct review of the state court's decision in the United States Supreme Court, not
by seeking federal habeas relief under § 2254. See Menna, 423 U.S. at 62. Finally, both
Broce and Class involved double-jeopardy claims raised by federal prisoners, either on
direct appeal (Class) or through a Fed. R. Crim. P. 35(a) motion to vacate sentence (Broce).
See Class, 138 S. Ct. at 802-03; Broce, 488 U.S. at 565-69. In short, none of the authorities
Petitioner relies on to argue that double-jeopardy claims are not subject to the AEDPA’s oneyear limitation period support that argument.
Second, to the extent Petitioner argues the time bar does not apply to Brady claims or
claims implicating a state trial court's subject matter jurisdiction, Petitioner’s position is
contrary to Tenth Circuit precedent and prior rulings of the federal district courts in this
circuit. See Morales v. Jones, 417 F. App'x. 746, 749 (10th Cir. 2011) (unpublished)
(rejecting habeas petitioner's argument that "subject matter jurisdiction can never be waived
and therefore he can never be barred from raising the issue” as “without support in the law”
and concluding that "[a]s with any other habeas claim, [a claim that the trial court lacked
subject matter jurisdiction] is subject to dismissal for untimeliness”); Murrell v. Allbaugh, No.
18-CV-0341-JHP-FHM, 2019 WL 2130144, at *5 (N.D. Okla. 2019) (unpublished) (citing
Morales and rejecting habeas petitioner's argument that "ALL jurisdictional issues can
NEVER be forfeited or waived & MUST be addressed on their merits always"), certificate of
appealability denied sub nom. Murrell v. Crow, No. 19-5051, 2019 WL 5405940 (10th Cir.
Oct. 22, 2019) (unpublished); McIntosh v. Hunter, No. CIV-16-460-RAW-KEW, 2017 WL
3598514, at *3 (E.D. Okla. 2017) (unpublished) (citing Morales and rejecting habeas
petitioner’s argument that jurisdictional claim is not subject to AEDPA's time-bar); Lockett v.
Rudek, No. CIV-11-184-R, 2011 WL 2634216, at *2 (W.D. Okla. 2011) ("There is no
exception in 28 U.S.C. § 2244(d)(1)(A) for a habeas claim based on a trial court's alleged
lack of subject matter jurisdiction, nor does [p]etitioner cite any federal case law which
recognizes such exception.”); Walker v. Calbone, No. 06-CV-294-TCK-SAJ, 2007 WL
845926, at *3 (N.D. Okla. 2007) ("Neither 28 U.S.C. § 2244(d) nor federal case law makes
such an exception for jurisdictional issues arising under state law.”). Though these
unpublished decisions are not binding on this Court, the Court finds them persuasive and
adopts their reasoning here to reject Petitioner's contention that the nature of his claims bars
application of the AEDPA's one-year statute of limitations.
D. Petitioner has not demonstrated any circumstances warranting equitable tolling.
Finally, Petitioner contends he can establish "cause and prejudice” to overcome his failure to
comply with state procedural rules because his trial counsel abandoned him after sentencing
and prevented him from making an informed decision as to filing an appeal. Doc. 1, at 5-8,
16-17, 21; Doc. 9, at 1-2, 6-11. Given Petitioner's pro se status, the Court construes
Petitioner's argument as one seeking equitable tolling based on attorney misconduct.3
*7 To obtain equitable tolling, a petitioner must show “ '(1) that he has been pursuing his
rights diligently, and (2) that some extraordinary circumstance stood in his way’ and

■ ■

prevented timely filing” of his federal habeas petition. Holland, 560 U.S. at 649 (quoting Pace
v. DiGuglielmo, 544 U.S. 408, 418 (2005)). This is a "strong burden" and requires the
prisoner "to show specific facts to support his claim of extraordinary circumstances and due
diligence.” Yang v. Archuleta, 525 F.3d 925, 928 (10th Cir. 2008) (quoting Brown v. Barrow,
512 F.3d 1304, 1307 (11th Cir. 2008)). While equitable tolling is available to permit review of
untimely habeas claims, it “is a rare remedy to be applied in unusual circumstances.” AlYousifv. Trani, 779 F.3d 1173, 1179 (10th Cir. 2015) (quoting Yang, 525 F.3dat929).
Petitioner appears to seek equitable tolling on the basis of attorney misconduct. In some
cases, an attorney's conduct, if sufficiently egregious, may support tolling of the AEDPA's
one-year limitation period. Holland, 560 U.S. at 651; Fleming v. Evans, 481 F.3d 1249, 1256
(10th Cir. 2007). But the circumstances in Holland and Fleming were quite different than
those here. In Holland, the habeas petitioner alleged his attorney committed misconduct by
failing to file a timely federal habeas petition, the task he was expressly retained to perform,
despite the petitioner's repeated and consistent communications with the attorney regarding
the filing deadline. 560 U.S. at 652-54. Similarly, in Fleming, the habeas petitioner alleged

^ Ce a
https://nextconectional.westlaw.com/Document/I72355040fifb911e99eel83d6367a96f2/Vie... 7/9/2020

Page 6 of 8

Barnes v. Dowling | WestlawNext

the attorney he retained to assist him in seeking state postconviction relief misled him into
believing the attorney was actively pursuing legal remedies in state court when the attorney
was not and thus prevented him from filing a timely federal habeas petition. 481 F.3d at
1255-57. Here, in contrast, Petitioner alleges his trial counsel performed deficiently before,
during and immediately after Petitioner's plea hearing. Specifically, he claims counsel failed
to investigate the facts of his case, deficiently permitted Plaintiff to plead guilty to felony
murder and the underlying felony, and abandoned him "during the critical ten day appellate
window” in which he could have filed a motion to withdraw his plea thereby depriving him of
his opportunity to file a direct appeal. Doc. 1, at 5-9,14-17, 19-20; Doc. 9, at 6-11. Absent
from his petition and response though are any allegations that trial counsel's conduct, either
before or immediately after the February 2011 plea hearing, prevented Petitioner from filing
a federal habeas petition before his one-year deadline expired on March 21,2012. Thus,
even assuming trial counsel's conduct was sufficiently egregious and prejudicial in that it
caused Petitioner to default his federal claims in state court, Petitioner cannot demonstrate
that trial counsel's conduct prevented him from complying with § 2244(d)(1)'s one-year
statute of limitations.
Moreover, even if he could rely on trial counsel's conduct as an "extraordinary circumstance’
that prevented him from filing a timely habeas petition, Petitioner has not shown that he
diligently pursued his habeas claims. As previously discussed, Petitioner sought collateral
review on only one occasion during the one-year period after his conviction became final.
And, on that occasion, Petitioner's request singularly sought a reduced sentence. Doc. 8-2,
at 1-6. Just over one year after his AEDPA deadline expired, Petitioner filed a motion
requesting modification of his sentence on the bases that he was a first-time offender and
his prison facility was overcrowded. Doc. 8-4, at 1.-Petitioner first presented his federal
habeas claims in state court when he filed his application for postconviction relief in July
2017, more than six years after his conviction became final. Doc. 1-1, at 17. On this record,
the Court cannot find that Petitioner diligently pursued his federal habeas claims.
*8 Based on the foregoing, Petitioner cannot make the showings necessary to support
equitable tolling of the one-year limitation period.10
III.
Under 28 U.S.C. § 2244(d)(1)(A) Petitioner's one-year limitation period commenced on
March 12, 2011, and, even with the benefit of statutory tolling, expired on March 21, 2012.
Further, generously assuming 28 U.S.C. § 2244(d)(1)(D) applies and Petitioner's one-year
limitation period instead commenced on April 17, 2017, his petition remains untimely, even
with the benefit of statutory tolling for the period his application for postconviction relief was
pending in state court. And, Petitioner has not identified any circumstances warranting
equitable tolling of either one-year limitation period. The Court therefore grants
Respondent's motion, and dismisses the petition for writ of habeas corpus, with prejudice, as
time-barred under 28 U.S.C. § 2244(d)(1). Based on the dismissal, the Court denies as moot
Petitioner's requests for an evidentiary hearing and appointment of counsel.

IV.
Rule 11, Rules Governing Section 2254 Cases in the United States District Courts, instructs
that ’[t]he district court must issue or deny a certificate of appealability when it enters a final
order adverse to the applicant" A district court may issue a certificate of appealability "only if
the applicant has made a substantial showing of the denial of a constitutional right." 28
. U.S.C. § 2253(c)(2). When the district court dismisses a habeas petition on procedural
grounds, the petitioner may obtain a certificate of appealability only by showing both "[1] that
jurists of reason would find it debatable whether the petition states a valid claim of the denial
of a constitutional right and [2] that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484
(2000). Under the circumstances of this case, reasonable jurists might debate whether the
petition states any valid constitutional claims. Nonetheless, the Court finds reasonable jurists
would not debate its conclusion that the petition is time-barred under 28 U.S.C. § 2244(d)(1)
or its conclusion that Petitioner's circumstances do not warrant equitable tolling. The Court
therefore declines to issue a certificate of appealability.
ACCORDINGLY, IT IS HEREBY ORDERED that:
1. Respondent's motion to dismiss (Doc. 7) is granted.
2. The petition for writ of habeas corpus (Doc. 1) is dismissed with prejudice as timebarred.

https://nextcorrectional.westlaw.com/Document/I72355040ffb91 le99eel 83d6367a96f2/Vie... 7/9/2020

"5*1 a

Bames v. Dowling | WestlawNext

Page 7 of 8

3. Petitioner's requests for an evidentiary hearing and appointment of counsel are denied
as moot.
4. A certificate of appealability is denied.
5. A separate judgment shall be entered in this matter.
ORDERED this 4th day of November, 2019.

All Citations
Slip Copy, 2019 WL 5697187

i

Footnotes
1

!
The State initially charged Petitioner in Count 2 with first degree felony murder,
in violation of OKLA. STAT. tit. 21, § 701.7, but the State orally amended the
charge to second degree felony murder as part of the plea agreement. Doc.
8-6, at 2 n.1.

2

Throughout this opinion, the Court's record citations refer to the CM/ECF
header page numbers found in the upper right-hand corner of each document.

3

The state district court's letter denying the motion for judicial review is dated
January 5, 2012, but was filed January 6, 2012. Doc. 8-3, at 1.

4

The Clerk of Court received the federal habeas petition on February 21,2019.
Doc. 1, at 1. The petition includes a “certificate of mailing" indicating that
Petitioner deposited the petition “in the U.S. Mail, first class postage prepaid”
on February 8, 2019. Id. at 23. Without more, this statement does not reflect
that Petitioner used his facility's legal mailing system and thus is not sufficient
to invoke the prison mailbox rule. See Price v. Philpot, 420 F.3d 1158, 1163-64
(10th Cir. 2005) ('[A]n inmate seeking to take advantage of the mailbox rule
must use the prison's legal mail tracking system where one is in place."); Rule
3(d), Rules Governing Section 2254 Cases in the United States District Courts
(“If an institution has a system designed for legal mail, the inmate must use
that system to receive the benefit of [the prison mailbox] rule."); Fed. R. App.
P. 4(c) .(providing requirements for compliance with prison mailbox rule in
context of filing appeal). Moreover, while the certificate of mailing indicates the
petition was placed in the U.S. Mail on February 8, 2019, a letter included in
the same packet as the petition is dated February 12, 2019, and the envelope
that contained the letter and the petition is postmarked February 19, 2019.
Under these circumstances, the Court declines to apply the prison mailbox
rule. And, as further discussed below, even if the Court generously applied the
rule, a filing date of February 8, 2019, would not aid Petitioner in showing that
he timely filed his federal habeas petition.
These are the two claims Petitioner clearly identifies in his habeas petition.
Because Petitioner appears pro se, the Court must liberally construe his
petition without becoming an advocate on his behalf. United States v. Pinson,
584 F.3d 972, 975 (10th Cir. 2009). Applying the rule of liberal construction,
Petitioner also appears to allege violations of his rights to due process and
equal protection, the evidence is insufficient to support his convictions, he did
. not receive a fair trial by an’ impartial tribunal, the prosecutor violated Brady v.
Maryland, 373 U.S. 83 (1963), by failing to turn over exculpatory evidence, and
he received ineffective assistance of trial counsel. Doc. 1, generally.

6

Petitioner's one-year limitation period commenced on March 11, 2011, the day
after his conviction became final, and expired on March 11,2012. See Harris,
642 F.3d at 907 n.6. However, because March 11, 2012, fell on a Sunday,
Petitioner had until the following Monday, March 12, 2012, to file a timely
federal habeas petition. See Fed. R. Civ. P. 6(a)(1)(C).

7

Because the last day to file his petition would have fallen on December 25,
2018, the Court calculates the filing deadline as December 26, 2018. See Fed.
. R. Civ. P. 6(a)(1)(C).

8

The Court previously concluded it would not apply the prison mailbox rule to
deem the habeas petition filed on February 8, 2019. See supra n. 4. But even

https://nextcorrectional.westlaw.com/Document/I72355040ffb91 le99eel 83d6367a96f2/Vie... 7/9/2020

V

Barnes v. Dowling | WestlawNext

Page 8 of 8

if the Court did apply the prison mailbox rule, the habeas petition would still be
' untimely by 45 days.
9

In both his petition and response, Petitioner argues, and cites relevant
authority, to support his position that he can establish “cause and prejudice” to
overcome the procedural default of his habeas claims in state court—i.e., his
failure to comply with state procedural rules for moving to withdraw his pleas
and seek direct appellate review. See Docs. 1, 9. But those arguments are not
relevant to the question before this Court Respondent moves for dismissal of
the habeas petition on the basis that Petitioner failed to comply with the
AEDPA’s statute of limitations—a federal procedural rule, not a state
procedural rule. Docs. 7, 8. Petitioner's arguments regarding "cause and
prejudice” are thus premature unless and until he can make the showings
necessary to overcome the time-bar. And as discussed below, even construing
his "cause and prejudice" argument as one seeking equitable tolling, he cannot
make the necessary showings.

10

Petitioner also alleges the trial court “failed to ensure that [he] is guilty in fact.”
Doc. 9, at 9. Even liberally construed, the Court does not read this bare
assertion as alleging, much less demonstrating, that Petitioner's untimely filing
could be excused through a credible claim that he is actually innocent. See
Perkins, 569 U.S. at 386, 392 (discussing actual-innocence exception to the
AEDPA's statute of limitations).

End of
Document

WestlawNext © 2020 Thomson Reuters

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

THOMSON REUTERS
Thomson Reuters is‘hot‘providing legal advice

https://nextcorrectional.westlaw.com/Document/I72355040ffb91 Ie99eel83d6367a96f2/Vie... 7/9/2020

ppnpnHff

IK

i

STATE OF OKLAHOMA,

rmsto

Plaintiff,

CASE NUMBER

Defendant,

[NOTE: The trial judge shall ensure the defendant is
sworn either prior to completing the Summary of Facts
or prior to inquiry by the Court on the Plea. If the
defendant is entering a nolo contendere, or other type
guilty plea, correct by pen change where term "guilty”
used.]

vs

Vlfc iWd
SS# y c/d> •
> ) T .0 . C~f

p.o.B.

" / s'-—efc“

/P"/

r7.C'/',3e-r

-n,-« .*■<

DISTRICT COURT

(Home Address)
PLEA OF GUILTY
SUMMARY OF FACTS

f 1. L iff .15
••

PART A: Findings of Fact, Acceptance of Plea

1.

• Is the name just read to you your true name?

i '■

-

S«1V KGWe SiilYH, OOUW-etL|«YES^)
STATE OF COX TOLLS C&liJTY'-------

NO

If No, what is your correct name? ___
I have also been known bytfce name(s).

CfAk Wll

2.

My lawyer's name is

3.

(a) Do you wish to have a record made of these proceedings
by a Court Reporter?
(b) Do you wish to waive this right?

4.

Age:

a»i

^

c*

Grade completed in school:__<4

YES

5.

Can you read and understand this form?
- (If the answer above is no, ADDENDUM A is to be completed and attached)

6.

Are you currently taking any medications or substances which affect your
ability to understand these proceedings?

. YES

Have you been prescribed any medication that you should be taking, but
you are not taking?

YES

7.

NO

(j5>

If so, what kind and for what purpose?

8.

Have you ever been treated by a doctor or health professional for mental
illness or confined in a hospital for mental illness?

YES

If yes, list the doctor or health professional, place and when occurred:

9.

Do you understand the nature and consequences of this proceeding?

<(YEs)

NO

10.

Have you received a copy of the Information and read Its allegations?

(yes)

NO

11.

Does the Slate move to dismiss or amend any case(s) or count(s) in the information
or on page 2 of the information?
YES

NO

YES
YES
YES
YES

NO­
NO
NO
NO

If so, set forth the cases/counts dismissed or amended.

12.

A.

0)
(2)

Do you understand you are charged with:
Crime

crrzo.s.injTj

|c) „ /tudv-

(3)
(4)

7

Xik

Statutory Reference
„____ O.S._________

' II1 o.s.
^if 1__ o.s.

wil
y'i\

For additional charges: List any additional charges on a separate sheet and label as PLEA OF
m ill

tv

Annchirvj

im o

4® *1

•,}

J)

w.

B. Are you charged after former conviction of a felony?
If yes, list the felony(ies) charged:________

YES

13.

Have you previously been convicted of a felony? If so, when, where and for what felony/felonies?

14.

___ (Check if applicable) Do you understand you are subject to the Delayed
Sentencing Program for Young Adults and what that sentencing program involves?

YES

NO

___ (Check if applicable) Do you understand that upon a conviction on a plea
of guilty to the offense(s) of____________
you will
be required to serve a minimum sentence of:
85% of the sentence of imprisonment imposed before being eligible for
parole consideration and are not eligible for earned or other type of credits
which will have the effect of reducing the length of seritence to less than
85% of the sentence imposed?

15.

NO

___ % of the sentence of imprisonment imposed or received prior to
becoming eligible for state correctional earned credits toward completion
of your sentence or eligibility for parole?

YES

NO

___ (Check if applicable) Do you understand that a conviction on a plea of
guilty to the offense(s) of
____ will
subject you to mandatory compliance with the Oklahoma Sex Offender
Registration Act?

YES

NO

WhaUs the charge(s) to which the defendant is entering a plea today?

2
16.

Do you understand the range of punishment for the crime(s) is/are:
(List in same order as in No. 15 above)

(1) minimum___
(2) minimum ) ^
(3) minimum
-~i
C
(4) minimum

f'

o

maximum
maximum
maximum
maximum

—
/

^

/

__
3

and/or a fine $ _______
and/or a fine $ //). Ic.A
and/or a fine $ j/>
and/or a fine $ T[X~

_ YES
_ YES
_YES
.YES

NO
NO
NO
NO

*

For additional charges: List any additional punishments on a separate sheet, with additional crimes
and labeled as PLEA OF GUILTY ADDENDUM B.
17.

Read the. following statements:
You have the right to a speedy trial before a jury for the determination of whether you are guilty or
not guilty and if you request, to "determine sentence. (If pleading to capital murder, advise of
procedure in 21 O.S. 570.1.10(B)). At the trial:
(1) You have the right, to have a lawyer represent you, either one you hire yourself or if you are
indigent a court appointed attorney.
(2) You are presumed to be innocent of the charges.
(3) You may remain silent or, if you choose, you may testify on your own behalf.
(4) You have fhe right to see and hear all witnesses called to testify against you and the right to
cross-examine them.
(5) You may have your witnesses ordered to appear in court to testify and present evidence of any
defense you have to these charges.
(6) The state is required to prove your guilt beyond a reasonable doubt.
(7) The verdict of guilty or not guilty decided by a jury must be unanimous; however, you can
waive a jury trial and, if all parties agree, the case could be tried by a Judge alone who would
decide if you were guilty or not guilty and if guilty, the appropriate punishment.
Do you understand each of these rights?

YES

NO

411

18.
19.

20.

21.
22.
23.

Do you understand by entering a plea of guilty you give up these
rights?

(3)

NO

Do you believe your lawyer has effectively assisted you in this case
and are you satisfied with his/her advice?

(3)

NO

Do you wish to change your plea of not guilty to guilty and give up your
right to a jury trial and all other previously explained constitutional rights?

NO

Is there a plea agreement?

NO

/U-

kkyMf'jS

n (
Ls' >- Sij(± yr

25.

26.

; no

Have you talked over the charge(s) with your lawyer, advised him/her
regarding any defense you may have to the charges and had his/her advice?

IJ

24.

NO

Do you understand that a conviction on a plea of guilty could increase
punishment in any future case committed after this plea?

Lf

What is your understanding of the plea agreement?
~ n

i

YES

iQ.

v
..

i

£Lljf3§33?

r. !■ I/ f-fsu!
—y Jj

h/jn'i'j)

Do you understand the court is not bound by any agreement or
recommendation and if the court does not accept the plea agreement
you have the right to withdraw your plea of guilty?

NO

Do you understand that if there is no plea agreement the court can
sentence you within the range of punishment stated in question 16?

CyesI

NO

Do you understand your plea of guilty to the charge(s) is after: (Check one)
C~no prior felony convictions
□

one (1) prior felony conviction

□

two or more prior felony convictions

List prior felony convictions to which pleading:

27.
28.

What (is) (are) your plea(s) to the charge(s) (and to each one of them)?
Did you commit the acts as charged in the Information? ■

/aJu

/

(Q)

NO

State the factual basis for your plea(s) (attach additional page as needed, labeled as ADDENDUM C)-

, A-h lit- Co.ll>, J-lfl
U'C W T/n
29.

30.

31.

32.

$

li-

l)llAl'zhhj

h-'Af.

Have you been forced, abused, mistreated, or promised anything
by anyone to have you enter your plea(s)?

YES

Do you plead guilty of your own free will and without any coercion
or compulsion of any kind?

NO

If you are entering a plea to a felony offense, you have a right to a PreSentence Investigation and Report which would contain the circumstances
of the offense, any criminal record, social history and other background
information about you. Do you want to have the report?

YES

(A) Do you have any additional statements to make to the court?

YES

(B) Is there any legal reason you should not be sentenced now?

YES

(JncT>

4Z- tt'

J0

—y

HAVING BEEN SWORN, I, the Defendant whose signature appears below, make the following statements
under oath: (Check one)
(1)

A. I have read, understood and completed this form
^ B. My attorney completed this form and we have gone over the form and
I understand its contents and agree with the answers. See ADDENDUM A.
□

C.The Court completed this form for me and inserted my answers to the questions.

(2) The answers are true and correct.
(3) I understand that I may be prosecuted for perjury if I have made false statements to this court.

Defendant
Acknowledged this
33.

day of

20.

I, the undersigned attorney for the Defendant, believe the Defendant understands the nature,
purpose and consequence(s) of this proceeding. (S)He is able to assist me in formulating any
defense to the charge(s). I am satisfied that the Defendant’s waivers and plea(s) of guilty are
voluntarily given and he/she has been infogngd ofajbjegal and constitutional rights.

Attorney for Defendant
34.

The sentence recommendation in question 23 is correctly stated. I believe the recommendation is
fair to the State of Oklahoma.

35.

Offer of Proof (Nolo contendere plea) _________ __________________________________

ASSISTANT DISTRICT ATTORNEY

•
36.

THE COURT FINDS AS FOLLOWS:

A. The Defendant was sworn and responded to questions under oath.
B. The Defendant understands the nature, purpose and consequences of this proceeding.
C. The Defendant’s plea(s) of_________________
entered and accepted by the court.

is/are knowingly and voluntarily

D. The Defendant is competent for the purpose of this hearing.
E. A factual basis exists for the plea(s) (and former conviction[s], if applicable).
F. The Defendant is guilty as charged: (Check as appropriate)
□

after no prior felony convictions.

□

after one (1) prior felony conviction.

□

after two (2) or more prior former felony convictions.

H3> n

~<j

G. Sentencing or order deferring sentence shall be:
□

imposed instanter, or

□

continued until the

□

If the Pre-Sentence Investigation and Report is requested; it shall be provided to the court by
the
day of
,20.
at

day of

,20.

at

H. Defendant is committed to:
______ The RID Program
_

The Regimented Training Program

______ The Delayed Sentencing Program for Young Adults

V

DONE IN OPEN COURT this

feb

,a> O day of

UL0

,20J[_.
f/l )JO

Court Reporter Present.

JUDGE OF THE DISTRICT COURT

/'

V\ 0

QyY

Deputy Court Clerk

"UlU- hi

W iU

NAME OF JUDGE TYPED OR PRINTED

Part B: Sentence on Plea

Case No.
State v._
Date:

_

[NOTE ON USE: Part B to be used with the Summary of Facts if contemporaneous with the entry of plea
or may be formatted as a separate sentencing form if sentencing continued to future date.]

THE COURT SENTENCES THE DEFENDANT AS FOLLOWS:
TIME TO SERVE
1. You are sentenced to confinement under the supervision of the Department of Corrections for a term of
years as follows- (List in same order as in question No. 15, Part A)
_ ,

. -Y O <■ j■£, r-L-n. A-____
—^-----

i

-5",

d

AS/

C^l L

o£~%C'uyru>

/Z4--XC

□ Concurrently

3. Defendant shall receive:

/<??) i//'fit

Of * r .,A

/ <ra vC-At

A A A T~
A A-

2. The sentence(s) to run

/V/v,.p

/< i,

/: JiX1 r

'stt-

-T-

ftuux
A f’ /'I Jp

□ Consecutively

□ Credit for time served

□ Not applicable
□ No credit for time served

DEFERRED SENTENOF
1. The sentencing date is deferred until.
2’

20.

at

,M.

(w'll/wi11 not) be supervised. The terms set forth in the Rules and Conditions of Probation found in
Addendum D shall be the rules you must follow during the period of deferment.

SUSPENDED SENTENCE or SUSPENDED AS TO PART
1. You are sentenced to confinement under the supervision of the Department of Corrections for a term of
years as follows:

to be suspended as follows:
(a) ALL SUSPENDED

YES

NO

(b) Suspended except as to the first

inr,r?M'oi ,h-

are

suspended under the terms set forth in the Rules and Conditions of Probation found in Addendum D.
Said perl0d of incarceration shall be in the custody of the Department of Corrections, to be served in
e

A

jH?
------

Defendant’s term of incarcerafin shall be calculated as:
------ Calendar days with credit for good behavior only (57 O.S. Section 65).
------ As calculated by the Sheriff with all implemented and allowable credits allowed by law.

2. The sentence(s) to run

□ Concurrently

3. Defendant shall receive:

O Consecutively

□ Credit for time served

□ Not applicable
□ No credit for time served

FINES AND COSTS

You are to pay a fine(s), costs, fees and/or restitution as follows: (Addendem E which is attached and made
a part of this order)
D

To the Tulsa County District Court Clerk as set out in the Order of the Court - Rule 8 Hearina
Addendum.
y

□.

To the Tulsa County District Attorney's Office as set out in the Restitution Schedule Addendum.

□.

Department of Corrections as set out in the Pre-Sentence Investigation Report and/or the
Rules and Conditions of Probation Addendum.

NOTICE OF RIGHT TO APPFfll
Sentenced to Incarceration, Suspended or Deferred:
To appeal from this conviction, or order deferring sentence, on your plea of guilty, you must file in the
todai/s ^°UrtY erl^s Office a written Application to Withdraw your Plea of Guilty within ten (10) days from
^.dae- You must set forth in detail why you are requesting to withdraw your plea. The trial court must
dental
? ^ ^ UP°n y°Ur application within thirtV (30) days from the date it is filed. If the trial court
rv,?rt> a
?Ppll“t,on- lou have ‘he right to ask the Court of Criminal Appeals to review the District
Courts denial by filing a Petition for Writ of Certiorari within ninety (90) days from the date of the denial
Aooeal and DPdaySifr°m
date,thS App,ication 10 Withdraw Plea of Guilty is denied, Notice of Intent to
4 2mf If von
a0" °fRecord must be filed Pursuant to Oklahoma Court of Criminal Appeals Rule
4.2(D). If you are indigent, you have the right to be represented on
_ appeal by a court appointed
attorney and the right to a record and transcript at public expense.
Do you understand each of these rights-to-appeal?----- -—

YES'

Do you want to remain in the couqtyjail ten (10) days before beingX
taken to the place of confinement/”^
—--------------

NO

'Eyes-—

no

Have you fully understood the questions that have been asked?

(-YES"5

NO

Have your answers been freely and voluntarily given?

@)

■ N/A

■

NO

I ACKNOWLEDGE UNDERSTANDING OF RIGHTS AND SENTENCE IMPOSED.

n

Defendant

I, the undersigned attorney, have advised the Defendant of his appellate rights.

Attorney for Defendant
y|A
Done in open court, with all parties present, this ,

1
Cpurt Reporter Present
. c

-

An\j \,r

Deputy Court Clerk

L=£ IQ

day of _______ X?

JUDGE OF'T^l E DISTRICT COURT

'JfX
.V-’

-------

«jL

ADDENDUM “A”
CERTIFICATE OF DEFENSE COUNSEL
As the attorney for the Defendant,
1.

, 1 certify that:

The Defendant has stated to me that he/she is
□ able
□ unable
understand the attached form, and I have: (Check appropriate option)

to read and

deten™ned the Defendant is able to understand the English language.
-□

determined the Defendant is unable to understand the English language and obtained
—------- ----------------------------------------to interpret.

2-

I have read and fully explained to the Defendant the allegations contained in the Information in this

3'

^777^7 ,U"y 6XPlained ,0 thS Defendant a" °»‘he questions in the Plea of Guilty/Summary
answers
qUeSti°nS Set °Ut in ,he Summar* of Facls are lhe Defendant

4'

°f 7* knowled9e and belief tee statements and declaration made by the Defendant
are accurate and true and have been freely and voluntarily made.

Dated this

7 ^ day of

,y

Cj/jMv-'J

,20Jj_.

7 'I
s.

\

“T

Attorney for the Defendant

1

1

IN THE DISTRICT COURT IN AND FOR TULSA COUNTY,

2

STATE OF OKLAHOMA.

3
STATE OF OKLAHOMA,

)
)

4

Plaintiff,
5

)
)
)
)
: )

vs .
6
ADELSO SHADRICK BARNES,
.7

Case No. CF-09-5867

Defendant
8
9

******

10

TRANSCRIPT OF. PROCEEDINGS

11

PLEA AND SENTENCING

12

HAD ON THE

13

2 8TH DAY OF FEBRUARY, 2 011

14

BEFORE THE

15

HONORABLE BILL MUSSEMAN

16

* * * * *

17
Appearances:
18
19
20

FOR THE STATE OF OKLAHOMA:
MR. STEVE KUNZWEILER, District Attorney
Tulsa County District Attorney's Office
500 S. Denver, Suite 900
-Tu-l-sa—Ok-Ta-homa—7-4-1-0-3—------:------------- :-----------

21
22
23

FOR DEFENDANT BARNES:
MR. CARLOS WILLIAMS, Attorney at Law
616 S. Boston Ave., Suite 404
Tulsa, Oklahoma 74119

24
25

Reported by:

Christy Smith, CSR, RPR

ft

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

B

HI A

2

1

PROCEEDINGS

2

THE COURT:

Let's go on the record in Case

3

Number CF-2009-5867,

State of Oklahoma versus Adelso

4 ■ Barnes.

Also today is the State of Oklahoma versus

5

Mr. Hunt.

6

that and he will be next after Mr. Barnes.

7

Mr. Hunt is ready to plead,

Mr. Barnes,

He ' s told, me

I've just been handed a plea of guilt

8

summary of facts form which appears to me to have .your

9

signature on it.

Is this

10

DEFENDANT BARNES:

11

THE COURT:

in fact, your signature,, sir?
Yes,

sir.

That tells me that you have read

12

all of this information and filled it out correctly; is

13

that true?

..............' ............................... ’....................."

14

DEFENDANT BARNES:

15

THE COURT:

Yes . .

It tells me that, with the

16

assistance of your attorney, you have negotiated a

17

recommendation with the State of Oklahoma',

18

going to be pleading guilty today for that

19

recommendation, which I show to be 35 years in the

'20

Department of Corrections.

There -is some fines and

21

assessments that come along with that,

22

are here to do today?

23

DEFENDANT BARNES:

24

THE COURT:

25

that you are

Is that what you

Yes, sir.

It says that you. have completed

the eighth grade in school; is that true?

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

H* a

3

1

DEFENDANT BARNES:

2

THE COURT:

3

DEFENDANT BARNES:

4

THE COURT:

5

sir .

attorney read it to you?

7

THE COURT:

I read it.

You read it.

Did your attorney

answer any questions you had as you went through it?

9

DEFENDANT BARNES:

10

THE COURT:

11

DEFENDANT BARNES:

Huh?

Pardon?
Did he answer questions for

me?

13
14

Ye s ,

Did you read this form or did your

DEFENDANT BARNES:

12

sir.

Can you read and.write?

6

8

Yes,

THE COURT:

No.

If you had questions,

were

you able to'" ask them?

15

DEFENDANT BARNES:

16

THE COURT:

Yeah.

It says here

- which one. is true,

17

you read, .understand, and completed this form or your

18

attorney completed this form and you have gone over the

19

form and understand the contents and agree with the

20

answers ?

21

DEFENDANT BARNES:

22

THE COURT:

23

Both, basically.

So you guys went through it

together?

24

DEFENDANT BARNES:

25

THE COURT:

(Nods.head.)

Is that right?

DISTRICT COURT OF OKLAHOMA

OFFICIAL TRANSCRIPT

cl 3 A

4

1

DEFENDANT BARNES:

2

THE COURT:

3

DEFENDANT BARNES:

4

THE COURT:

5

All right.

. And I'11 show this to you.
MR. WILLIAMS:

8

THE COURT:

That's fine, Judge.

Do you feel like you had enough

time, to go through this form with your counsel?

10

DEFENDANT BARNES:

ir

THE COURT:

12

That's correct.

I'm going to check them both then,

7

9

sir.

consistent .with what you told me.

6

■

Yes,

Yes, sir.

Is there anything about this form

that you did not understand?

13

DEFENDANT BARNES :'

14

THE COURT:

No,

sir.

.................. ..... .

It tells me that you understand

15

the nature and consequences of this proceeding;

16

true?

17

DEFENDANT BARNES:

18

THE COURT:

is that ’

Yes, sir.

It tells me you have not ever been

19

treated for mental health issues or mental health

20

illness.

21

DEFENDANT BARNES:

22

THE COURT:

23

looks like Count 1,

24
25

~

No,

sir.

You've been charged in Count
felony murder; Count 2 --

MR. WILLIAMS:

I'm sorry, Judge.

It's Count

2.

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

ro *

L

5

1
2
■ 3

THE COURT:

Count 2,

felony murder; Count 3,

burglary first degree; Count 4, robbery with ■ a weapon;
and Count 5, knowingly concealing stolen property.

4

Are there any announcements to the charges,

5

MR. KUNZWEILER:

6

State?

Yes, sir.

Your Honor, pursuant to plea negotiations,

at this

7

time,

8

Mr. Barnes that he committed-the crime of felony murder

9

in the second degree.

Count 2 we're amending.to allege with regard- to' ■

Pursuant to that amendment,

we

10

expect him to plead guilty to that offense and we'll

11

recommend 35 years regarding that particular count.

12
13

THE COURT:
State of Oklahoma.

You heard the announcements of the
is that your understanding?

14

DEFENDANT BARNES:

15

THE COURT:

Yes, sir.

With the amendment to second

16

degree murder, you'll be entering a plea of guilty and

17

that's what you will be getting the 35 years -on.

18

that what you understood it to be?

"19

DEFENDANT BARNES:

20

THE COURT:

This

Yes', sir.
I'm looking on the form

21

and I don't see it.

22

what's called an 85-percent crime.

23

that?

It's not answered.

24

DEFENDANT BARNES:

25

THE COURT:

Is

This,

sir,

is

Do you understand

Yes, sir.

Which means that of the 35 years,

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

rt a

6

1

you'll be required by law to serve 85 percent of

2

time before being eligible for parole or some type of

3

relief.

Do you understand that?

4

DEFENDANT BARNES:

5

THE COURT:

6

Yes,

sir.

Did you go over that with your

attorney?

7

DEFENDANT BARNES:

8

THE COURT:

9

MR. WILLIAMS:

10

THE COURT:

■ 11
12

that

13

We did go over that.

Pardon?

I signed it,
THE COURT:

sir.

This wasn't answered.

DEFENDANT BARNES:
accident.

Yes,

I probably skipped it on

if that's what you need.

I'm going to go ahead right

here

14

and check this one.

15

percent of the sentence of imprisonment imposed before

16

being eligible for parole consideration?

17

Did you understand that?

Do you see on 14- where I checked 85

18

DEFENDANT BARNES:

19

THE COURT:

I circled yes.

Uh-huh.

This form tells me that you.

20

understand the rights that you're giving up to enter a

21

plea;

22
. 23
24
. 25

is that true?
DEFENDANT BARNES:
THE COURT:

Yes,

sir.

That you're presumed innocent, you

have a right to a jury trial, and you have a right to
require the State of Oklahoma to prove your guilt beyond

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

7
*'

a reasonable doubt.
2

By this plea, you'll be giving up

all of those' rights.

Is that what you want to do today?

3

DEFENDANT BARNES:

4

THE COURT:

Yes,

sir.

I've told you, and the State

5

announced,

6

is, on that second degree murder charge,

7

Department of Corrections.

8.

other stuff and there will be fines and costs

9

what you have worked out with your attorney?

that my understanding of. the recommendation

DEFENDANT BARNES:

11

THE COURT:

sir.

12-11
MR. WILLIAMS:

14

THE COURT:

16

Yes,

Is that

It says on the form that on

13

15

in the

It will be CC with some

10

12

35 years

Does it say,

That's correct.

-- 2009 you were present and --

"and in concert with the co-defendant

listed"?

17

MR. WILLIAMS:

18

THE COURT:

Yes,

sir.

-- did rob and burglarize the

19

victim during the commission of these crimes.

20

victim was killed and items were stolen from the home.

21

Do you adopt that statement I just read as true,

22

DEFENDANT BARNES:

23

THE COURT:

24
25

Yes,

The

sir?

sir.

Is there anything you need to add

to that, Mr. Kunzweiler,
MR. KUNZWEILER:

or not?
Your Honor

I would certainly

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

^3 zv

8

1
. 2

add as part of the fact basis the preliminary hearing
which was conducted in his presence and that that

3

evidence could certainly support what we would submit as

4

an appropriate factual basis.

5
6

THE COURT:

What I'm saying is, do you

remember the preliminary hearing that you had in this

7 • matter,, sir?
8

DEFENDANT BARNES:

9

preliminary hearing?

10

THE COURT:

11

DEFENDANT BARNES:

12

THE COURT:

13

Yeah.
I remember the preliminary,

And that's

you understand then

what evidence is against you?

. 14

DEFENDANT BARNES:

15

THE COURT:

16

threatened,

17

guilty?.

Yes,

All right.

sir.
Has anybody forced,

or beat you to get you to enter this plea of

18

DEFENDANT BARNES:

19

THE COURT: ' Are you entering this plea of

20

DEFENDANT BARNES:

22

THE COURT:

. 24
25

No,

sir.

guilty because you are guilty and for no other reason?

21

23

'

Do I remember the

Yes,

sir.

In other words, has anybody

promised you something above and beyond this 35-year
recommendation I've discussed with you?
DEFENDANT BARNES: .No,

sir.'

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

f6l n

9

1
2

THE COURT:

Is there any reason I should not

accept his plea of guilty at this time

3

MR. WILLIAMS:

4

THE COURT:

5

Mr. Williams?

No, Your Honor.

I'll accept your plea of guilty.

I'll find it s knowingly and voluntarily entered and'I

6 I will assess the sentences worked out through
7

negotiations.

That is,

Count 2 will be 35 years in the

Department of Corrections,
9 I Crime Fund Assessment.

•

Count 3,

10

MR. KUNZWEILER:

11

THE COURT:

12

Corrections,

13

Assessment7"'Count 4,

14

Corrections,

. 15

$600 fine,

$150 Victim of

is that 20 years?

Yes .

So 20 years in the Department of

$600 fine,

$150 Victim of Crime Fund

35 years in the Department of

$600 fine,

Assessment; and Count 5,

$150 Victim of Crime Fund
five years in the. Department of

16

Corrections with $600 fine,

17

Assessment.

18

the same time, and I will give you credit for the time

19

you've served waiting for sentencing and trial.

20

repeat that to you and the sentences that you understood

•21
22
.23

it to be,

$150 Victim of Crime Fund

All of those' counts run concurrently,

or at

Did I

sir?
DEFENDANT BARNES:
THE COURT:

Yeah, I understand.

Is that correct

24

MR. - WILLIAMS :

25

THE COURT:

Mr. Williams?

That's correct,

Judge.

In addition to the things we ' ve

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

71

10

1

discussed,

sir, you have the right to appeal.

Your

2 I signature is here on this.form under what's called the
3

notice of rights to appeal.

4

that section?

5

DEFENDANT BARNES:

6

THE COURT:

7

appeal?
DEFENDANT BARNES:

9

THE COURT:

Yes, sir.

Do you need me to explain them

again?

11

DEFENDANT BARNES:

12

THE COURT:

13

Yes, sir.

Do you understand your rights to

8

10

Do you remember signing

No, sir.

The important part that starts all

the appeal rights is 10 days from today's date,

I f you

14

think something legally went wrong, you need to file

15

what's called an application to withdraw your plea

16

within 10 days of today's date.

17

get to change your mind and say I want to do it
over.

18

There has to be some legal problem.

. 19

DEFENDANT BARNES:

20

THE COURT:

21

remorse,

22

want to do today?

you do not just

sir .

Knowing you just don't get buyer's

I'll ask you one more time,

23

DEFENDANT BARNES:

24

THE COURT:

25

Yes

Now,

is this what you

Yes, sir.

Is there anything else,

Mr. Williams?

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

•

11

1

MR. WILLIAMS:

2

THE COURT:

3

MR. KUNZWEILER:

4 I point,
5

No, Your Honor.

Mr. Kunzweiler?
No, sir, other than

at some

I have victim impact statements for the Court to

entertain.

I ask you go ahead and do Mr. Hunt and then

6| at some point before imposition of sentencing we do
7

that.

8
9

THE COURT:

There is something else I think I

need to do.

10

Thank you, bailiff.

11

Sir,

I did not swear you in.

Raise your right

12

hand.

13

court will be truth', the whole 'truth, and nothing" but '

14

the truth, so help you God?

15

DEFENDANT BARNES:

16

THE COURT:

Do you swear the testimony you will give today in

17

guilty with you.

18

true and correct?

Yes .

I’ve just gone over this plea of

Is everything that you have told me

19

DEFENDANT BARNES:

20

THE COURT:

Yes,

sir.

Is there anything you.did not

21

understand about this plea?

22

DEFENDANT BARNES:

23

THE COURT:

No, sir.

You told me that you were entering

24

a knowing and voluntary plea for a 35-year

25

recommendation, that you were not forced,

coerced,

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

or

S'1 A

12

1

abused in any way to enter that plea.

2

true?

3

DEFENDANT BARNES:

4

THE COURT:

Yes,

Is all of

sir .

You told me you knew what you were

5

doing and understand the nature and consequences

6

clear-headed today.

DEFENDANT BARNES:

8

THE COURT:

I,

Yes,■sir.

likewise,

sentenced you and you

verified that that 35 -year sentence,

10

those counts,

concurrent on all

is what you were expecting; is that true?

11

DEFENDANT BARNES:

12

THE COURT:

13

and are

Is all of that true?

7

9

that

Yes,

sir.

And you told me you understand

your rights to appeal";

is that' true? ' .. ........

14

DEFENDANT BARNES:

15

THE COURT:

Yes,

'

sir.

Most importantly, that you need to

16

start by filing an application to withdraw your plea

17

within 10 days of today's date,

18

legally went wrong.

19

.

Is that all correct?

DEFENDANT BARNES:

20

THE COURT:

if you think something

Yes,

sir.'

Is there anything further,

sir?

21

Anything you want to say to the Court before I close the

22

record?

23
24
.... ■ 25

DEFENDANT BARNES:
losing his life.

I apologize for that man

You know what I mean?

THE COURT:

Yes, sir.

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

13

1

DEFENDANT BARNES:

2

THE COURT:

3

MR. KUNZWEILER:

4

THE COURT:

5

MR. WILLIAMS:

6

THE COURT:

7

That's all I have to

say.

Anything else, State?

No, sir.

Defense?
No, Your Honor.

We'll be off the record in the

matter of Mr. Barnes.

8
9

(Proceedings concluded.)

10
11
12
13
14
15
16
17.
18
19
20
21
22
23
24
25

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

5”^ A

14

1

-CERTI FT O ’ A T F

2
3

STATE OF OKLAHOMA)
)

4

COUNTY OF TULSA

y-

ss .

)

5
6
I,

7

Christy Smith, a Certified Shorthand

.Reporter and "Registered Professional- Reporter, within

8

I.and for the State of Oklahoma,

CSR No.

9I

01332, do hereby

certify that the foregoing is a' true and correct
10
11
12
13

transcription of my shorthand notes of proceedings held
in Case Number CF-09-5867, held on the 28th of February,
,2011' before the Honorable Bill Musseman.

14
I further certify that I am neither,related to,

15
16

nor attorney for any interested party, nor otherwise
interested in the event of said action.

17
18WITNESS MY HAND AND SEAL this 22nd day of

19"
January,

2020.

20
21
22

\
K^kflk

23
24
25

C

Lsty
Smith,
AJ

mm

f:

V

i

CSR

Christina D. Smith
of Oklahoma
oo,:;-rhand Reporter

-.O OoTiOoiro F on ; i\-y

DISTRICT COURT OF OKLAHOMA - OFFICIAL TRANSCRIPT

<J° A

I

1

-S'
/'•

IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

' CQ

$

/l'
V/

*4
ADELSO BARNES,
Petitioner/Appellant,

Case No. 19-5101

v.

REQUEST IN PETITION
FOR REHEARING AND
SUGGESTION FOR EN
BANC CONSIDERATION

JANET DOWLING,
Respondent/Appellee.

PETITION FOR REHEARING AND
SUGGESTION FOR EN BANC CONSIDERATION
COMES NOW, Adelso Bames, the Petitioner/Appellant herein, pro se,
timely moves for Request in Petition for Rehearing and Suggestion for En Banc
Consideration pursuant to U.S.Ct. of App. 10th Cir. Rules 35.1 and 35.2, 28
U.S.C.A. Accordingly, the Order and Judgment entered on March 6, 2020 is
attached hereto.
As set out below, Mr. Barnes’ case should be remanded to the District Court
for an evidentiary hearing.
ARGUMENT AND AUTHORITY
The petition must begin with a statement that the panel decision conflicts
with a decision of the United States Supreme Court or of the court to which the
petition is addressed (with citation to the conflicting case or cases) and

1

I I

consideration by the full court is therefor necessary to

secure and maintain

uniformity of the court’s decisions. F.R.A.P. Rule 35. In addition, the petition
must state with particularity each point of law or fact that the petitioner believes
the court has overlooked or misapprehended and must

argue m support of the

petition. F.R.A.P. Rule 40.
1. The Procedural Ruling Is Not Plain Without

Assessing Petitioner’s

Entitlement To Counsel For His First

Appeal As Of Right Under
Constitutional Guarantees In Light Of The Exhaustion Doctrine.
The panel decision conflicts with the holding of Slack

v. McDaniel, 120

S.Ct. 1595, 1604 (2000). Clearly established is: “When the district court denies a
habeas petition on procedural grounds without reaching the prisoner’s underlying
constitutional claim, a COA should iissue when the prisoner shows, at least, that
jurists of reason would find it debatable whether the petitioner states

a valid claim

of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district

court was correct in its procedural ruling.” Ibid.

Petitioner’s case is distinguished from Slack because that

District Court’s

procedural ruling dealt with “a second or successive habeas petition,” of which the
Slack Court detennined that the District Court’s “conclusion was wrong.” Id. 120
S.Ct., at 1604.
Title 28 U.S.C. § 2254(c) prescribe: “An applicant shall not be deemed to
have exhausted the remedies available in the courts of the State, within the

2
\

i I

meaning of this section, if he has the right under the law of the Sate to
any available procedure the question presented.”

raise, by

Id. (emphasis added).

Accordingly, a petitioner cannot bring a federal habeas claim without first
exhausting state remedies. See Rose v. Lundy, 102 S.Ct. 1198 (1982). Under this
“exhaustion” rule, the “available procedure” of OCCA Rule 2.1(E), did not realize
nor satisfy Mr. Barnes’ right to counsel on appeal. Cf. Landreth v. Harvanek, 2014
WL 1390803 (W.D. Okla. 2014) (unpublished) (According
Petitioner should have attempted to obtain leave to file

to Judge Erwin,

a direct appeal out of time

in state court prior to pursuing this habeas action.).
Because the “right to appeal” is grounded upon the “due process of law”
clause to the Fourteenth Amendment, the procedural ruling

was not “plain”

without assessing the “state corrective process” of OCCA Rule 2.1(E). Contrary to
the Oklahoma Post-Conviction Procedures Act is that “I was denied a direct appeal
through no fault of my own” is NOT an enumerated provision

in which “Post-

Conviction Relief’ can be granted, according Oklahoma Statutes title 22,
§ 1085.
Of course, it would prove absurd to argue “I was denied a direct appeal” during the
“direct appeal” proceedings. See 22 O.S. § 1086 (Any ground finally adjudicated
or not so raised, or knowingly, voluntarily and intelligently waived in the
proceeding that resulted in the conviction or sentence or in any other proceeding
the applicant has taken to secure relief may not be the basis for subsequent

3

i I

application, unless the court finds a ground for relief asserted which for sufficient
reason was not asserted or was inadequately raised in the prior application.).
However, due to the posture of Oklahoma’s “post-conviction” collateral
process, the Tulsa County District Court correctly points
construction, that Mr. Barnes’ “Application”

was

in fact

out, under a liberal
‘an application for

post-conviction relief requesting a recommendation of a direct appeal out of time.”
Order Denying at 3. Moreover, under this substantial question, Rule 2.1(E), Rules
of the .Oklahoma Court of Criminal Appeals, Title. 22, Ch. 18, App. (2017)
(hereinafter ‘‘OCCA Rule 2.1(E)”) “is the only procedural mechanism by which
[Mr. Barnes] could withdraw his plea at this time.” Ibid.
The error in logic is that, when there iis a
fundamental right to “effective
assistance of counsel for a first appeal as of right” and Mr. Barnes did

not

personally and affirmatively waive that right, then it was ERROR for the District
Court to not hold an evidentiary hearing into whether Appellant “can establish
‘cause and prejudice’ to overcome his failure to
because his trial counsel abandoned him after
making an informed decision as to filing

comply with state procedural rules

sentencing and prevented him from

an appeal.” Opinion and Order at 13. In

other words, “[ojnly by considering all relevant factors in a given case can a court
properly determine whether a rational defendant would have desired

4

an appeal or

I

1

that the particular defendant sufficiently demonstrated to

counsel an interest in an

appeal.” Roe v. Flores-Ortega, 120 S.Ct. 1029, 1036 (2000).
Of course, “relevant factors” must be applied to. the Rules of the Oklahoma
Court of Criminal Appeals, like their federal counterpart, “possess force of
statute. ’ 22 O.S. § 1051(b), In this strict legal sense, the Rules

are “self-evident”

and provide more than sufficient “supporting evidence” that Mr. Barnes

was

“abandoned ” m the ten-day critical period requiring the assistance of competent
■ counsel. Carnley v. Cochran, 369 U.S. 506, 513 (1962) (The record must show, or
there must be an allegation and evidence which show, that

an accused was offered

counsel but intelligently and understanding^ rejected the offer,

Anything less is

not waiver.). See also Appellant’s Opening Brief at 5 — 6.
Undoubted, operation of OCCA Rule 1.14(D)(1) “belonged to Petitioner
alone, and it was his responsibility to communicate any wish to do so” where the
Tnal Counsel Responsibility is not “ambiguous.” It is “clear and obvious” that the
District Court s opinion and order lacked such a critical finding. Of course, there
is no dispute that the “procedural bar” of OCCA Rule 4.2(A) is “independent and
adequate” and “consistently and evenhandedly applied.” Under this “due process”
theory, there must be a presumption of regularity in following the Rules of the
Oklahoma Court of Criminal Appeals. It is clear that there is fatally lacking a
“presumption of regularity” of OCCA Rule 1.14(D)(1) in Mr. Barnes case at bar.

5
6G> a

! I

In light of OCCA Rule 1.14(D), the inference to “waiver” by default is clearing
erroneous to the fundamental right to “effective counsel.” See also Appellant’s
Opening Brief at 8.
In this case, the “extraordinaiy circumstance” at issue involve an attorney’s
failure to satisfy professional standards of care. Specifically the “Rules of the
Oklahoma Court of Criminal Appeals.” Undoubtedly, the “supporting evidence”
that Mr. Barnes chose to remain in the county jail for the “ten days” for the critical
period in which “due process of law” attaches is subject to debate among
reasonable jurists.

That is, the ten-day period was especially critical for Mr.

Barnes because he was not subject to a “notice of appeal” proceeding but rather an
“adversary” heanng initiated by “an application to withdraw plea.” In other words,
without constitutionally competent assistance by trial counsel, Petitioner—without
waiving his right to counsel on appeal—cannot pro se “set forth in detail” the
grounds for withdrawing the plea.

In this instance, the panel overlooked the

“substantial showing” of Petitioner’s right to effective assistance of counsel on his
first appeal as of right and found “equity” would not stand for Mr.

Barnes’,

inartful, pro se “Double Jeopardy” claims.

6
G>1 2}

;

i

2. Henderson v. Morgan, 96 S.Ct. 2253 (1976) And Hicks v. Franklin, 546 F.3d
1279 (2008) Provides Federal Support For Petitioner’s Invalid State
Conviction.
In support of the “Double Jeopardy” claim, Petitioner was not provided
adequate notice of the charge of Second Degree Felony Murder nor the direct
consequences of that charge. See also Appellant’s Opening Brief at 18.
This Court has determined, in accordance with Oklahoma law, that “[o]nce
the state has established that a defendant used a dangerous weapon in the course of
a robbery that results in death, the offense of second degree murder is no longer an
option under Oklahoma law.”

Wilson v. Sirmons, 536 F.3d 1064, 1103 - 04

(citations omitted); Lambert v. Workman, (Not Reported) 2009 WL 1941971, at
*15. In the Plea of Guilty, Summary of Facts Form, Mr. Barnes—with assistance
of counsel—waived the right to have a record made of the proceedings. The bare
record reflects that the only “notice” was “Felony Murder, 2 ND» next to the
question “Is there a plea agreement?” on page 3 and “Amended to Felony Murder,
2” on page 5. To the opposite, Mr. Barnes’ misunderstanding is evident on page T.
“Felony Murder, 21 O.S. 701.7” and page 2: “minimum Life maximum LWOP.”
However, without “real notice,” in an amended information or record
colloquy, Mr. Barnes clearly did not have an understanding of (1) “Homicide is
murder in the second degree ... When perpetrated by a person engaged in the
commission of any felony other than the unlawful acts set out in Section 1,
7
a

i i

1

Conclusion
There is clearly established law that provides for due process when a State
provides a statutory right to appeal. See Oklahoma Statutes Title 22, § 1051. In
the case at bar, the challenged action attacks the legitimacy ofRule 2.1(E), Rules of
the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App. (2011)

Mr.

Barnes NEVER waived his right to “effective assistance of counsel” on his “first
appeal as of right.” The panel overlooked this “due process” protection in both
“the notice of appeal” stage and the “waiver of that right to appeal.”

As a

“collateral” proceeding, OCCA Rule 2.1(E) is not evenhandedly applied and State
courts did not pass upon the holding of Evitts v. Lucey, 105 S.Ct. 830 (1985) in
denying Mr. Barnes relief to file an out of time appeal

In fact,- it is “rarely

granted.” Orange v. Calbone, 318 F.3d 1167, 1171 (10th Cir. 2003). “For the state
ground to be adequate, it must be ‘strictly or regularly followed,’ and applied
‘evenhandedly to all similar claims.’”

Hickman v. Spears, 160 F.3d at 1271

(internal quotation marks omitted). On the contrary, the Oklahoma courts rejected
the pro se proposition that Petitioner did not receive any attorney so that he could
make an ‘informed decision’ about an appeal and was uniformed about his appeal
rights, and requests this [Tulsa County District] Court to withdraw his pleas of
guilty out of time.” Order Denying at 2. '

10
L

~U A

i

i

Furthermore, the case of Henderson v. Morgan, 96 S.Ct. 2253 (1976)
supports Petitioner’s argument that his State conviction is invalid as a matter of
constitutional law and provides an exception to AEDPA’s statute of limitations
because it is fundamentally unfair” to convict a plea defendant for a crime to
which there is lacking sufficient notice requirement to comprehend a truly knowing
and voluntary plea.
WHEREFORE the panel should. GRANT the instant petition and issue a
■ COA on the issues presented.
March ) [g, 2020
Respectfully Submitted,

Adelso Bames ODOC#641200
DCCC
129 Conner Road
Hominy, Oklahoma 74035

VERIFICATION/CERTIFICATE OF MAILING
I declare under penalty of peijury that he foregoing is tme and correct. 28
U.S.C. § 1746.
I hereby certify that a tme and correct copy of the foregoing instrument was
mailed on March Jj^, 2020, by placing the same in the U.S. mail here at Dick
Conner Correctional Center; 129 Conner Road; Hominy, Oklahoma 74035, with
first class postage prepaid to:
Tessa L. Henry OBA# 33193
11
7<^

I I

'i

Office of the Attorney General
State of Oklahoma
313 NE 21st Street
Oklahoma City, OK 73105

t

i

L

12
~ll> 1

